App. 1
Court of Criminal Appeals of Texas
November 25, 2020, Delivered
NOS. PD-1090-18, PD-1091-18
2020 WL 6930819
NATHAN RAY FOREMAN, Appellant
v.
THE STATE OF TEXAS
Judges: KEASLER, J., delivered the opinion for a
unanimous Court.
Opinion
ON STATE’S PETITION FOR DISCRETIONARY
REVIEW FROM THE FOURTEENTH COURT
OF APPEALS, HARRIS COUNTY
Acting on evidence that two men had been tortured and robbed at a business in Houston, the police
obtained a warrant to search the business. The warrant authorized the police to seize “any and all . . . surveillance video and/or video equipment” from the
business—and that is precisely what they did. The
problem, Appellant Nathan Foreman says, is that the
afﬁdavit supporting the warrant said not one word
about “surveillance video and/or video equipment” possibly being at the business. In this opinion, we must
decide whether the probable-cause magistrate was
nevertheless justiﬁed in issuing a warrant authorizing
the police to seize that equipment. We conclude that
she was.

App. 2
I.

BACKGROUND

As far as con men go, Richard Merchant and Moses Glekiah are not what most people would call luminaries of their profession. They had concocted a plan to
swindle Appellant Nathan Foreman into buying a
batch of “black money,”1 allegedly valued at $200,000,
for $100,000 in cash. Of course, the “black money” was
not money at all—it was construction paper. And at
ﬁrst, it seemed like the scam was working; Foreman
appeared to be on board. Foreman agreed to conduct
the transaction at Dreams Auto Customs, an auto-body
shop owned by his wife. But somewhere along the way,
the scam went awry.
Not long after Merchant and Glekiah arrived at
the shop, they were ambushed. Foreman and some accomplices captured both men, tied them up, and tortured them. Eventually, Merchant and Glekiah were
forced into a van at gunpoint. Foreman ordered his accomplices to take the pair to “the spot” and said that
he would “be there” when they arrived. Unfortunately
for Foreman, Merchant and Glekiah managed to escape in transit. Glekiah eventually told the police what
had happened to them and where it had happened.
Based on the information that Glekiah gave, the
police applied for a warrant to search Dreams Auto
Customs. In addition to providing the known details of

1

See Foreman v. State, 561 S.W.3d 218, 227 n.3 (Tex. App.—
Houston [14th Dist.] 2018) (en banc) (explaining what a “black
money” scam is).

App. 3
the alleged offenses, the warrant afﬁdavit had this to
say about the shop, produced here without alteration:
Said location of 2501-C #2 Central Parkway
Houston, Harris County, Texas is more
particularly described as a single story building complex with a large sign facing Central
Parkway that shows address 2501-C for all
the businesses within the complex strip, this
particular business is made of metal and brick
with dark tinted glass windows and black
painted aluminum; a sign attached to the
front of the building over the door reads
“Dreams Auto Customs”; the front door is
dark tinted glass and faces parking lot; on the
door is suite number C#2; the back of the business has an aluminum looking, gray in color
bay door that opens into the business.
Later in the afﬁdavit, this location is described as an
“autoshop.”
The hearing ofﬁcer reviewing the afﬁdavit, whom
we shall hereinafter refer to as the “magistrate,” found
that it established probable cause. She issued a warrant for the police “to search for and seize any and all
ITEMS CONSTITUTING EVIDENCE CONSTITUTING AGGRAVATED ASSAULT AND ROBBERY that
may be found therein [at the listed location, Dreams
Auto Customs] including,” among other things, “audio/video surveillance video and/or video equipment.”
Pursuant to this warrant, the police seized three computer hard drives from Dreams Auto Customs. Upon
analysis, one hard drive—the only hard drive at issue
in this proceeding—was found to contain surveillance

App. 4
footage that depicted much of the incident at Dreams
Auto Customs and Foreman’s involvement in that incident. Foreman was charged with aggravated kidnapping and aggravated robbery.
Foreman ﬁled a motion to suppress the fruits of
the search, invoking the Fourth Amendment to the
United States Constitution, Article I, Section 9 of the
Texas Constitution, and Chapter 18 of the Texas Code
of Criminal Procedure. Speciﬁcally, Foreman argued
that the warrant afﬁdavit “fail[ed] to set forth sufﬁcient facts to establish probable cause that audio and
video surveillance equipment” could be found at
Dreams Auto Customs. Through a winding procedural
path that is not altogether relevant to this proceeding,
the trial court denied Foreman’s motion as to the hard
drive at issue here and allowed the surveillance footage that it contained in evidence. Foreman was convicted of both offenses as charged and sentenced to ﬁfty
years’ conﬁnement.
On appeal, Foreman argued that the trial judge’s
ruling violated each of the constitutional and statutory
provisions he had invoked in his motion to suppress.
Once again, Foreman asserted that the warrant afﬁdavit failed to establish probable cause that surveillance
equipment could be found at Dreams Auto Customs. A
divided panel afﬁrmed the trial judge’s ruling. Foreman then ﬁled a motion for en banc reconsideration,
which was granted.
The en banc court of appeals agreed with Foreman
that the search warrant was issued in error because

App. 5
the supporting afﬁdavit failed to establish probable
cause that Dreams Auto Customs was equipped with a
surveillance system.2 It rejected the State’s argument
that it was “common knowledge” that most businesses
nowadays have surveillance systems.3 In so holding, it
adopted the standard that “common knowledge” consists only of matters “so well known to the community
as to be beyond dispute.”4 Applying that standard, the
court of appeals regarded the “presence of surveillance
video or equipment in an auto shop” to be insufﬁciently
“well known to the community as to be beyond dispute.”5 It also rejected the State’s argument that the
police’s seizure and subsequent analysis of the hard
drive was justiﬁed under the “plain view” doctrine.6
The court of appeals ultimately found that the trial
judge’s error in admitting the surveillance footage was
harmful and so reversed Foreman’s conviction.7
In this discretionary-review proceeding, the State
advances three arguments. First, the State argues that
the court of appeals erred when it held “that a magistrate could not infer from the warrant afﬁdavit that an
auto body shop would have a surveillance system.” Second, the State argues that the court of appeals erred to
hold that the seizure of the surveillance system was
2

Id. at 238.
Id. at 239.
4
Id. (citing Cardona v. State, 134 S.W.3d 854, 859 (Tex.
App.—Amarillo 2004, pet. ref ’d)).
5
Id.
6
Id. at 244.
7
Id. at 245.
3

App. 6
not justiﬁed by the plain-view doctrine. Third, the
State argues that the court of appeals erred to ﬁnd the
trial judge’s putative error in admitting the surveillance footage in evidence harmful. Based on our resolution of the ﬁrst point, we need not reach the second
or third points.
II.

LAW

There are three distinct legal provisions at issue
in this proceeding: The Fourth Amendment to the
United States Constitution; Article I, Section 9 of the
Texas Constitution; and Chapter 18 of the Texas Code
of Criminal Procedure.
“The cornerstone of the Fourth Amendment and
its Texas equivalent is that a magistrate shall not issue a search warrant without ﬁrst ﬁnding probable
cause that a particular item will be found in a particular location.”8 Under the Fourth Amendment, probable
cause to support the issuance of a search warrant exists “where the facts submitted to the magistrate are
sufﬁcient to justify a conclusion that the object of the
search is probably on the premises to be searched at
the time the warrant is issued.”9 The test is not
whether the warrant afﬁdavit proves beyond a reasonable doubt, or even by a preponderance of the evidence,
8

Rodriguez v. State, 232 S.W.3d 55, 60 (Tex. Crim. App.
2007) (internal quotation marks omitted) (citing U.S. Const.
amend. IV; Tex. Const. art. I, § 9).
9
Davis v. State, 202 S.W.3d 149, 154 (Tex. Crim. App. 2006)
(citations omitted).

App. 7
that a search of the listed location would yield a particular item of evidence; a “fair probability” will sufﬁce.10 Neither does the test demand that the afﬁdavit
be read with hyper-technical exactitude.11 While a
magistrate may not baselessly presume facts that the
afﬁdavit does not support, the magistrate is permitted
to make reasonable inferences from the facts contained
within the afﬁdavit’s “four corners.”12 Ultimately, the
test is whether the afﬁdavit, read in a commonsensical
and realistic manner and afforded all reasonable inferences from the facts contained within, provided the
magistrate with a “substantial basis” for the issuance
of a warrant.13 This is a “ﬂexible and nondemanding”
standard.14 “Thus, even in close cases we give great deference to a magistrate’s determination of probable
cause,” in part because we seek to “encourage police ofﬁcers to use the warrant process[.]”15
By contrast, we have held that Article I, Section 9
of the Texas Constitution “contains no requirement
that a seizure or search be authorized by a warrant.”16
10

See Rodriguez, 232 S.W.3d at 60 (quoting Illinois v. Gates,
462 U.S. 213, 235, 103 S.Ct. 2317, 76 L.Ed.2d 527 (1983)).
11
See, e.g., State v. Cuong Phu Le, 463 S.W.3d 872, 877 (Tex.
Crim. App. 2015) (citing Bonds v. State, 403 S.W.3d 867, 873 (Tex.
Crim. App. 2013)).
12
E.g., State v. McLain, 337 S.W.3d 268, 271-72 (Tex. Crim.
App. 2011) (footnotes and citations omitted).
13
See id.
14
Id. at 272 (citations omitted).
15
Rodriguez, 232 S.W.3d at 59.
16
Hulit v. State, 982 S.W.2d 431, 436 (Tex. Crim. App. 1998).

App. 8
The inquiry is holistic and singular: Whether, under
the totality of the circumstances and in light of the
“public and private interests that are at stake,” the
search or seizure was “reasonable.”17 But on appeal, the
only aspect of the instant search that Foreman has
characterized as unreasonable happens to be the same
aspect that he ﬁnds objectionable under the Fourth
Amendment: The mismatch between what the search
warrant expressly authorized (i.e., the seizure of “surveillance video and/or video equipment”) and what the
underlying afﬁdavit described. Therefore, our analysis
under Article I, Section 9 will mirror our FourthAmendment analysis. We will decide whether the warrant afﬁdavit established probable cause for the search
and seizure of surveillance equipment.
Finally, Article 18.01(b) of the Texas Code of Criminal Procedure says that “no search warrant shall issue
for any purpose in this state unless sufﬁcient facts are
ﬁrst presented to satisfy the issuing magistrate that
probable cause does in fact exist for its issuance.”18
Article 18.01(c) elaborates:
A search warrant may not be issued under
Article 18.02(a)(10) unless the sworn afﬁdavit
required by Subsection (b) sets forth sufﬁcient
facts to establish probable cause: (1) that a
speciﬁc offense has been committed, (2) that
the speciﬁcally described property or items
17

Holder v. State, 595 S.W.3d 691, 704 (Tex. Crim. App.
2020) (citing Hulit, 982 S.W.2d at 436).
18
Tex. Code Crim. Proc. art. 18.01(b) (some capitalization altered).

App. 9
that are to be searched for or seized constitute
evidence of that offense or evidence that a particular person committed that offense, and (3)
that the property or items constituting evidence to be searched for or seized are located
at or on the particular person, place, or thing
to be searched.19
In turn, Article 18.02(a)(10) says that a search
warrant may be issued “to search for and seize . . .
property or items . . . constituting evidence of an offense.”20 Other provisions of Article 18.02(a) authorize
the issuance of warrants to search for and seize, for example, stolen property, arms and munitions, weapons,
drugs, and instrumentalities of crime.21
Evidently believing that Article 18.01(c) demands
greater speciﬁcity in probable-cause afﬁdavits for
search warrants issued pursuant to Article 18.02(a)(10),
the court of appeals deemed it necessary to decide
whether the only provision authorizing the instant
search warrant was Article 18.02(a)(10).22 It found
that Article 18.02(a)(10) was not the only statute authorizing the issuance of the instant search warrant,
and so concluded that “additional ﬁndings [were] not
required under” Article 18.02(c).23 The only “ﬁndings”
19

Id. art. 18.01(c).
Id. art. 18.02(a)(10).
21
Id. arts. 18.02(a)(1), (3), (4), (7), (9).
22
See Foreman, 561 S.W.3d at 234-35 (citing Jennings v.
State, 531 S.W.3d 889, 893 (Tex. App.—Houston [14th Dist.] 2017,
pet. ref ’d)).
23
Id. at 235.
20

App. 10
necessary to justify the issuance of the instant search
warrant were those required by the Fourth Amendment.24
Foreman has not complained about this holding in
a cross-petition. The court of appeals’ decision in this
regard going unchallenged, we decline to review it. So
here again, our analysis under Chapter 18 of the Code
of Criminal Procedure will mirror our Fourth Amendment analysis. We need only decide whether the afﬁdavit in this case contained enough facts for a
magistrate to reasonably conclude that, to the degree
of certainty associated with probable cause, a search of
the listed location would yield evidentiary video equipment.
III. ANALYSIS
Before the court of appeals, the State argued that
the probable-cause magistrate could infer that Dreams
Auto Customs was equipped with a surveillance system
because “magistrates are allowed to make inferences
and presumptions based upon common knowledge.”
The court of appeals, while acknowledging that magistrates are “permitted to draw reasonable inferences
from the facts and circumstances contained within the
four corners of the afﬁdavit,”25 nevertheless rejected
the State’s invocation of “common knowledge.” It held
24

See id. (“Nonetheless, the Fourth Amendment requires
that a warrant afﬁdavit establish probable cause to believe that a
particular item is at a particular location.”).
25
Id.

App. 11
that only those matters that are “so well known to the
community as to be beyond dispute” may be regarded
as within the realm of “common knowledge.”26
Like the court of appeals, we look upon the State’s
“common knowledge” rubric with some skepticism.
Our research has revealed scant support for the idea
that a magistrate, contemplating a probable-cause afﬁdavit articulating a limited set of facts to justify the
issuance of a search warrant, may supplement the articulated facts with unarticulated facts that the magistrate deems so obvious or widespread as to constitute
“common knowledge.”27 That is not to say that probable-cause magistrates lack any authority to take cognizance of “common knowledge” whenever they
perceive it. It means only that it is not how established
Fourth Amendment jurisprudence would generally
frame the inquiry. Established Fourth Amendment jurisprudence would instead observe that a magistrate,
contemplating a probable-cause afﬁdavit articulating
26

Id. at 239 (internal quotation marks and citations omit-

ted).
27

See, e.g., Spinelli v. United States, 393 U.S. 410, 418, 89
S.Ct. 584, 21 L.Ed.2d 637 (1969) (characterizing as “common
knowledge” the fact that “bookmaking is often carried on over the
telephone and from premises ostensibly used by others for perfectly normal purposes”); Brinegar v. United States, 338 U.S. 160,
167, 69 S.Ct. 1302, 93 L.Ed. 1879 (1949) (characterizing as “common knowledge” the facts that “Joplin, Missouri was a ready
source of supply for liquor and Oklahoma a place of likely illegal
market”); cf. also Cassias v. State, 719 S.W.2d 585, 589 (Tex.
Crim. App. 1986) (characterizing as outside the realm of “common
knowledge” the fact that the “sale or ingestion of marihuana or
cocaine calls for the use of ” plastic tubs and tubing).

App. 12
a discrete set of facts to justify the issuance of a warrant, is allowed to draw all reasonable inferences from
the articulated facts.28 And that, we conclude, is the optimal way to address the probable-cause issue before
us. So, rather than imposing upon the State’s scantly
supported probable-cause rubric an even-less-well
supported limiting principle, we will sidestep those inquiries altogether and focus instead on what we perceive to be the proper Fourth Amendment inquiry. We
will simply decide whether it was reasonable for the
magistrate to infer from the facts actually articulated
in the probable-cause afﬁdavit that the business described in that afﬁdavit was equipped with surveillance cameras.
Considering the totality of circumstances presented to the magistrate, we conclude that such an inference was reasonable. To support this conclusion, we
will discuss each speciﬁc, articulated fact that we believe reasonably contributed to the magistrate’s determination of probable cause. Though we will discuss
each fact sequentially, we will analyze them in their
totality.
• The afﬁdavit described the target location
as one “business” amongst other businesses
within a “single story building complex.” From
the fact that the target location was a “business,” the magistrate could reasonably infer
28

See, e.g., Gates, 462 U.S. at 240, 103 S.Ct. 2317 (reafﬁrming “the authority of the magistrate to draw such reasonable inferences as he will from the material supplied to him by
applicants for a warrant”).

App. 13
that the activities being conducted there involved money. From the fact that this business was located within a “single story
building complex,” the magistrate could infer
that this business dealt in (or at least contained) tangible goods, and possibly even
cash. These facts would reasonably contribute
to the conclusion, at least to the degree of certainty associated with probable cause, that
the target location had a heightened need to
keep its premises secure.
• The afﬁdavit said that the target location
was “made of metal and brick,” with “dark
tinted glass windows and black painted aluminum.” From this, the magistrate could reasonably conclude that, not only did this
business have a heightened need for security
measures, it had already adopted at least one
security measure: tinted windows. From
there, it would not offend reason for a magistrate to infer that there was a fair probability
of other security measures being employed
there, as well.
• The afﬁdavit explained that this business
was called “Dreams Auto Customs” and was in
fact an “autoshop.” From this, the magistrate
could reasonably infer that the target business involved the customization of automobiles. Automobiles, the magistrate might
reasonably conclude, are uniquely mobile and
highly valuable tangible goods. And because
the automobiles being worked upon at this
business were customized items, the magistrate could reasonably infer that they

App. 14
warranted extra security. These things also
contributed to a reasonable inference that, at
least to the degree of certainty associated with
probable cause, the target location was likelier to employ some means of keeping tabs on
the comings and goings of the vehicles in its
care.
• The afﬁdavit said that there was a bay door
in the back of the business that opened into
the interior of the business. From this fact, the
magistrate could infer that the automobiles
upon which Dreams Auto Customs worked
were brought directly into the business; they
were not handled off-site. Consequently, either for security or liability purposes, the
magistrate could reasonably infer that the
business needed to be able to keep an eye on
the interior of the business.
From these concrete indications that the target
business had a unique need for security on its premises
and had in fact deployed some security measures, it
was logical for the magistrate to infer that to the degree of certainty associated with probable cause, the
business was equipped with a video surveillance system. This does not mean that based on the articulated
facts, we consider it more-than-ﬁfty-percent probable
that the target business was using surveillance equipment. That is not what probable cause demands.29 It
means only that based on the totality of the articulated
facts, it was not unreasonable for the magistrate to

29

See Rodriguez, 232 S.W.3d at 60 (citations omitted).

App. 15
discern a “fair probability” of such equipment being
found.30
IV. CONCLUSION
We acknowledge that this is a close case. But even
in close cases we must afford the magistrate’s determination of probable cause great deference, if for no other
reason than that such deference is likelier to foster the
constitutionally preferred warrant-application process.31 In our estimation, invalidating this warrant
would serve only to discourage the police from undertaking the warrant process in the future. Why go to all
the effort if a reviewing court would likely invalidate
the warrant anyway, for want of the right talismanic
set of words? Reading the afﬁdavit realistically and affording it all reasonable inferences consistent with the
magistrate’s ruling, and with the understanding that
the warrant process is to be fostered rather than discouraged, we ﬁnd that the afﬁdavit in this case was
just detailed enough for the warrant to authorize what
it did.
Because we ﬁnd that the warrant afﬁdavit articulated sufﬁcient facts for the magistrate to reasonably
conclude that a search of the target business would
turn up evidentiary surveillance equipment, we hold
that this warrant satisﬁed the Fourth Amendment.
Furthermore, because of the way in which this warrant
was challenged at trial and on appeal, this conclusion
30
31

See id. (citations omitted).
See id. at 59-60.

App. 16
also sufﬁces to dispose of the Article I, Section 9 and
Chapter 18 claims that Foreman raised. That being the
case, the trial judge did not err to admit the surveillance footage in evidence.
We reverse the court of appeals’ contrary judgments and afﬁrm Appellant’s convictions and sentences.
Delivered: November 25, 2020
Publish

App. 17
Court of Appeals of Texas,
Fourteenth District, Houston
August 31, 2018, Opinions Filed
NO. 14-15-01005-CR, NO. 14-15-01006-CR
2018 WL 4183718
NATHAN RAY FOREMAN, Appellant
v.
THE STATE OF TEXAS, Appellee
Notice: PUBLISH—TEX. R. APP. P. 47.2(b)
Counsel: For Appellant: Stanley G. Schneider, HOUSTON, TX.
For State: Clinton Morgan, HOUSTON, TX.
Judges: En Banc Court consists of Chief Justice Frost
and Justices Boyce, Christopher, Jamison, Busby, Donovan, Brown, Wise, and Jewell. Chief Justice Frost
and Justices Broyce, Christopher, Busby, Wise, and
Jewell join the En Banc Majority Opinion authored by
Justice Brown. Justice Jamison and Justice Donovan
issue Dissenting Opinions.
Opinion by: Marc W. Brown
Opinion
EN BANC MAJORITY OPINION
Appellant Nathan Ray Foreman challenges his
conviction for aggravated robbery and aggravated kidnapping. Foreman argues in a single issue that the
trial court should have granted his motion to suppress

App. 18
surveillance video evidence found on a computer hard
drive pursuant to a search warrant because the warrant’s supporting affidavit did not establish probable
cause. Having granted appellant’s motion for reconsideration en banc, we conclude the affidavit was not
sufficient to support a finding of probable cause. This
court’s panel plurality, concurring, and dissenting
opinions ﬁled August 10, 2017, are withdrawn, and our
judgment of that date is vacated. We reverse the trial
court’s denial of appellant’s motion to suppress and remand for a new trial consistent with this opinion.
I.

BACKGROUND

On December 24, 2012, witnesses driving on the
service road of Highway 290 observed complainants
Moses Glekiah and Richard Merchant tumble from the
rear of a van onto the road. Complainants were bound
with zip ties and their mouths were taped shut with
duct tape. Witnesses observed that complainants had
been shot and were bleeding. One witness called 9-1-1.
Police and paramedics arrived at the scene, and complainants were taken by ambulance to Ben Taub Hospital.
Both complainants were injured. Merchant was
more seriously injured. In addition to gunshot wounds
and injuries from falling out of a moving vehicle, Merchant’s abdomen had been burned with an iron. Due to
Merchant’s injuries, ofﬁcers could not initially interview him. However, ofﬁcers were able to interview
Glekiah at the hospital. Glekiah initially told Ofﬁcers

App. 19
Arnold and Hufstedler that he went to an auto shop to
work on some cars when he was robbed by several
black males.
Glekiah had an outstanding arrest warrant1 and
was transferred to Houston Central Jail after his discharge from the hospital. After the transfer, Arnold
and Hufstedler met with Glekiah at jail, and Arnold
asked him to “Take to us [sic] where this happened.”
Glekiah accompanied the ofﬁcers and directed them to
a custom auto shop at 2501 Central Parkway, Dreams
Auto Customs.
The ofﬁcers researched the shop, looking for individuals tied to the business. They found Charese Foreman listed as the owner of Dreams Auto Customs on a
ﬁling with the county clerk’s ofﬁce. Marriage license
records showed Charese was married to Nathan Foreman. Arnold and Hufstedler concluded Nathan and
Charese Foreman were both owners of Dreams Auto
Customs.
Arnold subsequently obtained a search warrant
for Dreams Auto Customs. Arnold was the afﬁant in
the afﬁdavit for the search warrant. In the afﬁdavit for
search warrant, Arnold described the facts as he understood them at that time: Glekiah and Merchant had
agreed to meet someone at Dreams Auto Customs to
conduct “business.” When the two men arrived, several
suspects grabbed them, tied them up, beat them,
poured gasoline on them, and threatened to set them
1

Glekiah had been indicted for armed robbery in Georgia.

App. 20
on ﬁre. The suspects stole cash and other items from
the men. The suspects then forced the men into the
back of a van at gunpoint and drove the van away from
the auto shop. The men jumped out of the moving van
because they believed they were going to be killed. As
the men jumped, they were shot by the suspects.
Arnold and Hufstedler executed the search warrant on January 8, 2013. At the shop, they found and
seized three computer hard drives, zip ties, duct tape,
a digital camera, a gas can, a computer skimmer, and
an iron. They also swabbed for DNA. The computer
hard drives were transferred to the police forensics lab,
and forensic experts retrieved video surveillance from
one of the hard drives. The video surveillance captured
a portion of the offenses and appellant’s involvement
in the offenses.
In a pretrial motion to suppress, appellant objected to the seizure of the computer hard drives and/or
video surveillance equipment. In support of the motion, appellant argued that the warrant did not list
computers or computer hard drives as items to be
seized. Appellant also argued that even if the computers were characterized as “audio/video surveillance” or
“video equipment” (items that were listed in the warrant), the supporting afﬁdavit was defective because it
failed to set forth sufﬁcient facts to establish probable
cause that surveillance equipment was located at the
auto shop. Initially, the trial court denied the motion
with regard to the computer containing surveillance
video but suppressed the other two computers. Appellant then moved for rehearing of the motion to

App. 21
suppress and ﬁled a second motion to suppress. Appellant asked the trial court to suppress “[a]ll computer
hard drives and or audio/video surveillance video and
or video equipment.” On rehearing, the trial court
ruled that none of the computers should be suppressed.
Appellant moved to suppress a third time at trial. The
trial court addressed the motion to suppress in a hearing outside the presence of the jury.
In the hearing, the State indicated it did not intend to introduce contents of the two computers which
did not contain surveillance video so only the computer
containing surveillance video was at issue. Arnold testiﬁed that he became aware of surveillance equipment
at Dreams Auto Customs before drafting his afﬁdavit,
when he initially visited the shop with Glekiah. He testiﬁed that he mentioned video surveillance equipment
in his afﬁdavit “[b]ased on the cameras that we saw
outside the business. If there’s cameras, there’s going
to be a video surveillance system. . . . [T]he cameras
outside told us that there was a system.” Arnold reiterated, “Based on what we saw at that location when we
drove by, we could see the video surveillance cameras
mounted on the exterior. We surmised that there must
be surveillance system on the inside as well possibly.
So we included that in the search warrant.” Arnold also
testiﬁed it was “not unusual” and “probably expected”
that a business like a custom auto shop would have a
surveillance equipment system. When asked, “[I]s that
something that you typically look for when investigating homicide cases?” Arnold responded, “Every time.”

App. 22
The afﬁdavit included “audio/video surveillance
video and/or video equipment” in a list of items Arnold
believed might be found at the auto shop:
I, D. Arnold, a peace ofﬁcer employed by Houston Police Department do solemnly swear
that I have reason to believe and do believe
that on the property of 2501-C #2 Central
Parkway Houston, Harris County, Texas (Target Location), with the authority to search for
and to seize any and all ITEMS CONSITUTING [sic] EVIDENCE CONSTITUTING AGGRAVATED ASSAULT AND ROBBERY that
may be found therein including, but not limited to all DNA and items that may contain
biological material; ﬁngerprints; hair ﬁber(s);
audio/video surveillance video and/or video
equipment; instrumentalities of the crime including ﬁrearm(s) and ballistics evidence;
gasoline container(s), lighter(s), tap, zip tie(s),
van; fruits of the crime including wallet(s),
suitcase, briefcase, money, documents establishing identity of Complainant(s) and/or
Suspect(s) such as paper(s), license(s), cell
phone(s).
The afﬁdavit also described the location:
Said location of 2501-C #2 Central Parkway
Houston, Harris County, Texas is more
particularly described as a single story building complex with a large sign facing Central
Parkway that shows address 2501-C for all
the businesses within the complex strip, this
particular business [sic] is made of metal and
brick with dark tinted glass windows and

App. 23
black painted aluminum; a sign attached to
the front of the building over the door reads
“Dreams Auto Customs”; the front door is
dark tinted glass and faces parking lot; on the
door is the suite number C#2; the back of the
business has an aluminum looking, gray in
color bay door that opens into the business.
Arnold admitted, however, that there was no reference to surveillance equipment in the section of the
afﬁdavit which stated the facts upon which his belief
was based. The afﬁdavit did not reference the ofﬁcers’
observation of cameras outside the business. The afﬁdavit did not reference the ofﬁcers’ experience with
surveillance equipment in custom auto shops or homicide cases. The facts section stated:
MY BELIEF IS BASED UPON THE FOLLOWING FACTS:
D. Arnold (Afﬁant) was assigned to investigate Aggravated Assault and reviewed offense
report #161435712D written by Ofﬁcer A.
Deleon. Affiant was dispatched to 10500 Northwest Freeway, Houston, Harris County, Texas.
Afﬁant learned from Ofﬁcer A. Deleon that
Cindy Davis (Witness) reported that on December 24, 2012 she observed two men (Complainants) lying injured on the side of the
roadway with their hands tied and mouths
duct taped. Afﬁant learned from HPD Ofﬁcer
A. Deleon that Complainants had apparent
gunshot wounds to their bodies and had been
transported to Ben Taub Hospital for treatment. Affiant spoke to Diane Deyoung who witnessed Complainants coming out of a white

App. 24
van license plate AV5-0784 before the [sic]
continued down the road without stopping. Afﬁant learned from hospital personnel that
Moses Glekiah (Complainant Glekiah) was
recovering from gunshot wounds and Richard
Merchant (Complainant Merchant) was in
critical condition for his gunshot injuries.
Afﬁant spoke with Moses Glekiah (Complainant Glekiah) and learned he and his friend
Richard Merchant (Complainant Merchant)
had agreed to engage in [sic] business transaction at 2501-C #2 Central Parkway Houston, Harris County, Texas with a male known
as “Jerry.” When Complainants arrived on December 24, 2012 at the business that they describe as an autoshop, they are grabbed by
several males and held against their will.
Complainant Glekiah reported that Suspects
also stole their cash money $400 that Complainants had in their possession, wallets, cell
phone and a suitcase/briefcase container belonging to Complainant Merchant. Suspect 1
poured gasoline on Complainants and held
lighter near Complainants threatening to set
them on ﬁre. Suspect 1 then called two other
Suspects who put Complainants in truck at
gunpoint. Complainant Glekiah says that
he felt in fear for their lives. Complainants
jumped out of the van because they believed
they were going to be killed. As Complainant
[sic] leaped out of the vehicle they were shot
by Suspects.
Complainant Glekiah directed Afﬁant to autoshop where this Aggravated Assault and

App. 25
Robbery occurred at 2501-C #2 Central Parkway Houston, Harris County, Texas. Afﬁant
researched the location and found the owner
to be Charese Foreman. Afﬁant review computer databases and discovered that Charese
Foreman is married to Nathan Ray Foreman.
Afﬁant reviewed criminal history of Nathan
Ray Foreman and found that he had been
charged with autotheft, possession of prohibited weapon and delivery of cocaine. Afﬁant
showed Complainant Glekiah a known photograph of Nathan Ray Foreman along with ﬁve
other photos of similar looking males. Complainant Glekiah positively identiﬁed Nathan
Ray Foreman as Suspect 1 who participated
in punching Complainants, told other suspects what to do, poured the gasoline on Complainants and contacted 2 suspects to drive
Complainant away from business. Affiant
knows that gasoline and lighter are deadly
weapons that can kill a person.
Afﬁant believes that Complainants and Suspects DNA will be inside the Target Location
along with property belonging to Complainant such as money, suitcase/briefcase, wallets,
cell phone, identiﬁcation cards. Also instrumentalities of the crime such as white van
that transported Complainants, guns used to
shoot Complainants, zip ties used to tie complainants may also be inside Target Location.
The trial court denied appellant’s motion to suppress.

App. 26
Trial resumed after the hearing, and the trial
court admitted the surveillance video into evidence.
The video was discussed by many witnesses and used
to corroborate complainants’ testimony. While there
was independent evidence about complainants’ rolling
out of the van and the van being on ﬁre,2 the video was
particularly signiﬁcant in showing that appellant was
involved in the robbery and the kidnapping. Other
than complainants’ testimony, the video was the only
signiﬁcant evidence showing appellant’s involvement
in the crimes, and evidence showed the credibility of
complainants to be questionable.
Arnold testiﬁed that complainants had been running a black money scam3 on appellant. Arnold testiﬁed Glekiah lied to him in his initial interview:
“[P]ortions of what he told us were not true.” Arnold
testiﬁed that Glekiah’s second interview took place at
2

At trial, the ﬁrst ﬁve witnesses testiﬁed to the scene out on
the highway where the two complainants tumbled out of the van
while tied up. The sixth witness testiﬁed about visiting the hospital to check on complainants’ condition on the day of the incident.
None of this testimony identiﬁed appellant as involved in any
criminal activity. None of this testimony identiﬁed appellant as a
driver or passenger in the van. None of this testimony even mentioned appellant.
3
In a “black money” scam, a perpetrator defrauds an individual by persuading the individual that bundles of banknotesized black paper are actually bundles of paper money that have
been dyed black to avoid detection by authorities. Glekiah and
Merchant represented to appellant that they would exchange
smuggled dyed money for cash at a two-for-one rate and provide
chemicals to remove the dye. On December 24, 2012, Glekiah and
Merchant planned to exchange $200,000 in “black money” (construction paper) for $100,000 of appellant’s cash.

App. 27
jail because Glekiah was in custody for an outstanding
warrant on an unrelated matter. Arnold testiﬁed that
he ultimately believed Glekiah because “the actual explanation of why they were here came out” over time.4
Arnold also testiﬁed about the search warrant, the
supporting afﬁdavit, and the search. With regard to the
computer hard drive containing the surveillance video,
Arnold testiﬁed that when he executed the search, he
observed that the hard drive appeared to be connected
to a ﬂat screen TV showing surveillance, and he “had
reason to believe that was actually a surveillance system that was hopefully going to depict what video was
collected in there.”5 Arnold testiﬁed that the video corroborated complainants’ story about what had happened to them before the scene on the highway.6
When Hufstedler was on the stand, the State extensively played the video and elicited testimony about
what it showed. The ﬁrst person Hufstedler identiﬁed
in the video was appellant. Hufstedler then repeatedly
identiﬁed appellant in different parts of the video. In
all, Hufstedler identiﬁed appellant in the video at least
4

Arnold also testiﬁed regarding Glekiah’s injuries. Arnold
and Hufstedler testiﬁed that Glekiah identiﬁed appellant in a
photo array.
5
Hufstedler similarly testiﬁed, “When we entered the shop
on the search warrant, when you walked into an ofﬁce back in the
shop itself where the cars were being worked on, if you see the
monitor, it’s actually just a large TV screen like you’re looking at
right now. It had surveillance cameras attached to it, and that
monitor was then attached to this Dell computer.”
6
The next two witnesses explained how the video had been
retrieved from the computer and saved to a ﬁle.

App. 28
ten times. He testiﬁed that the video showed appellant
walking in with duct tape in his hand. Hufstedler also
testiﬁed that the video showed that one of the men at
the body shop, Darren Franklin, had a gun, and later,
was walking with an iron in his hand.7 Hufstedler explained that some of what occurred happened off camera. He testiﬁed that the video showed the van being
parked inside the body shop. Hufstedler testiﬁed that
the video showed appellant open the doors to the van
and lay out a sheet or a blanket before pushing the two
tied-up complainants into the back of the van and closing its doors. Hufstedler testiﬁed that, after considering the video, he conducted multiple interviews and
ﬁled aggravated kidnapping and aggravated robbery
charges on appellant.
On cross-examination, defense counsel questioned
Hufstedler about the absence of DNA and fingerprint
evidence on the duct tape, zip ties, and other items
that were seized from the auto shop. Defense counsel
questioned Hufstedler about the identities of codefendants, pointing out that there were a total of six
co-defendants in the case. Hufstedler testiﬁed that
complainants were initially reluctant to discuss all the
facts with the police. Hufstedler acknowledged that
complainants were trying to con appellant in a black
money scam.
On re-direct, Hufstedler testiﬁed that the video
showed appellant and a co-defendant loading bags
7

That iron was seized in the search of the body shop and
tagged into evidence. There was no DNA recovered.

App. 29
complainants had brought to the shop into the
rental car driven by complainants before another codefendant drove the car out of the auto shop. Hufstedler testiﬁed the rental car was later discovered
“burned.” Hufstedler testiﬁed that the video and the
zip ties and tape recovered at the shop corroborated
what complainants told him. Hufstedler also testiﬁed
that complainants’ injuries corroborated their stories.8
When Glekiah and Merchant testiﬁed, they admitted they had been running a scam on appellant. Merchant admitted that he and Glekiah were using the
scam to steal $100,000 from appellant. Merchant admitted that he had run the same scam on a previous
occasion. Glekiah and Merchant admitted they were
not entirely honest with the police during the investigation. Glekiah testiﬁed that he had previously pled
guilty to pandering and was under indictment for another offense in Georgia. Merchant testiﬁed that he
had previously been convicted of family-violence battery in Georgia. During their testimony about the
events that took place in Dreams Auto Customs, the
video was played both to corroborate their testimony
and also to show what was missing from the video.
Recalled to the stand, Arnold testiﬁed on direct examination that the video showed appellant with a gun
8

The next witness was an arson investigator who responded
to a vehicle ﬁre and found the burned out rental car with the
driver’s licenses of the two complainants, fake money, a white
powdery substance, some shoes, and a backpack. The arson investigator testiﬁed that, based on his investigation, he determined
the ﬁre was incendiary, meaning someone had set the ﬁre.

App. 30
and that appellant was the one directing the other codefendants to bring the van into the body shop.
In the State’s closing argument, the State emphasized the importance of the video. Although defense
counsel had attempted to minimize the impact of the
video by calling it a “silent movie” in its closing, the
State disputed this characterization and repeatedly
referenced the video as evidence of the alleged offenses.
The State argued that the video corroborated the testimony given during trial:
You know that the testimony that you heard
from this stand makes sense for a variety of
reasons, not the least of which is the fact that
what Defense counsel describes as a silent
movie exists. It’s not just a silent movie, folks.
That is surveillance video footage that documents a horrible, horrible crime that occurred
here in your county back on Christmas Eve of
2012.
That’s not nothing. That is exactly the type of
evidence that you-all told me during voir dire
that you wanted because you said, “Video,
yeah, that would help me make my mind up.
It would be great if you could see it.”
Yeah, you might not be able to see everything
on the video, but you see enough. You see the
perpetration of a crime, and you see its horriﬁc aftermath.
The State argued that the video evidenced the involvement of appellant in the alleged offenses:

App. 31
There should be no doubt in your mind after
having seen that video that Nathan Ray Foreman, that man, was the one driving the boat
that day. It was his orders. It was his—it was
his initial contact with our complainants that
got this ball rolling. It was his orders that people come out with guns. It was his orders that
they be bound, that they be gagged. It was his
orders that they be burned. It was his orders
that they be tossed into the back of a van to go
someplace unknown to be shot and executed.
The State also argued that the video evidenced the
“exhibiting a deadly weapon” element of aggravated
robbery and aggravated kidnapping:
As for the exhibiting a deadly weapon, you
know that there were deadly weapons used as
part of the aggravated robbery in two ways.
You know that there were—that there was a
gun and/or guns, as the testimony as come
out, used initially right after Richard Merchant brought in that construction paper and
chemicals.
How do you know that there was a gun used?
Well, ﬁrst of all, you saw Darren Franklin
walking in with a gun on video. So you know
there was at least one gun. And testimony
from Moses and Richard was that there were
multiple guns there.
...
And, again, the deadly weapon, we talked
about this before in aggravated—when we were
discussing the elements of the aggravated

App. 32
robbery, that some of you could believe the
gun was used initially as they were binding
and blindfolding Richard and, you know, while
they had them down there on the ground.
Some of you could believe that, and some of
you could believe that the deadly weapon was
actually used in the van.
The State argued that the video showed appellant’s intent, using detailed references to the video in
the form of a timeline:
Actions speak louder than words. We talked
about this because you can infer somebody’s
intentions from your actions. The defendant
has an absolute right not to testify. So that
puts me in a place where how do I prove what
his intent is?
You have to look at the contextual evidence
surrounding it. Some of it you know. You
heard testimony from Moses Glekiah that the
defendant yelled out, “Guys come out,” and
people ran in with guns. So you can infer the
defendant’s intent from that. Absolutely. But
you can also infer his intent by looking at his
actions. The actions that he did over a fourhour period on December 24th of 2012.
So I want to look at it in terms of a timeline.
First of all, at 9:54 a.m. on the surveillance
video, Nathan Foreman puts an object consistent with a ﬁrearm in the back of his belt.
That right there is evidence that he was in
possession of a ﬁrearm.

App. 33
At 9:54, also, you see Darren Franklin on the
surveillance video putting a gun into his
waistband.
Folks, if they were just there for a friendly
business deal, why are we putting weapons,
why are we getting all weaponed up two hours
before the incident actually occurs?
At 11:25, Moses Glekiah and Richard Merchant arrived at Dreams Auto Customs.
At 11:30, Richard Merchant brings the money
and the chemicals inside of the Dreams Auto
Customs garage.
At 11:37, mere minutes after Richard Merchant has peacefully entered the location with
his suitcase and the backpack full of the items
used to scam the defendant, Darren Franklin
and Jason Cunningham enter the garage with
objects in their hands—you can see it on the
video—that are consistent with ﬁrearms.
At 11:45, Nathan Ray Foreman retrieves duct
tape and then walks off camera with it to a
location that is consistent to where the complainants are being held and tortured.
At noon, Nathan Ray Foreman is seen speaking on the phone, and then shortly thereafter
Jason Washington, the Customs agent, enters
in his uniform into the garage.
And you heard testimony that the agent then
helped by looking at the GPS of the complainants and asking them where the money was.
Folks, that’s what this is really about. Nathan

App. 34
Ray Foreman knew he was being scammed.
He ﬁgured it out. He saw that black money.
...
Don’t you know that he saw that that [sic]
money inside of that suitcase wasn’t real
money? Don’t you know that he realized that
he got scammed and he was pretty mad? He
was really mad. He thought this was going to
be a huge windfall for him. And when he realized that he was being scammed, he wasn’t
smart enough to pick up on the fact that the
money didn’t really ever exist.
And that’s what this is really about. These two
men were bound and tortured and terriﬁed
and ultimately they were sent to their deaths
because that man— . . . That man wanted
money. That’s what this is about.
At 1:00 p.m. Darren Franklin retrieves an
iron, an iron that was identiﬁed by Moses and
Richard as the iron that was used to torture a
screaming Richard Merchant. You heard testimony from Moses about how terriﬁed he was
during that moment, how it hurt him to see
his friend being hurt.
At 1:05, Charles Campbell wipes down the
complainants’ car. If these men, including Nathan Foreman, thought that they were in the
right, if they weren’t doing something that
was terrible and wrong and illegal, there
would be no need for them to try and wipe
down and tamper with the evidence like what
you see on the camera at 1:05 p.m.

App. 35
...
And, ﬁnally, at 3:30 p.m., Nathan Ray Foreman places a blanket or tarp in the back of a
van, a van where Moses Glekiah and Richard
Merchant, without hope, believing that they
were going to die that day, terriﬁed, in pain,
and alone, are loaded in.
And if what you see Nathan Foreman doing
on this video isn’t aiding, assisting, encouraging and planning, I don’t know what is. He is
literally the person who was shutting the
doors on the hope of our complaining witnesses.
The State referenced the video again in its ﬁnal
plea to the jury:
And so I’m asking each and every one of you
to do something, not because it’s fun, but because it’s right and each and every one of you
know it’s right. You’ve seen the video. You’ve
heard the testimony. There’s only one decision
for you to make, and that’s to ﬁnd Nathan Ray
Foreman guilty of aggravated robbery and aggravated kidnapping.
At the conclusion of trial, the jury found appellant
guilty of aggravated robbery and aggravated kidnapping. The trial court assessed 50-year sentences to run
concurrently. When the trial judge announced appellant’s sentence, she explained, “What I saw on the videotape that was offered into evidence is disturbing, to
say the least. Because of the severity of the injuries
and because of what I witnessed on the videotape, I

App. 36
assess your punishment at 50 years in the Texas Department of Criminal Justice Institutional Division in
each case to run concurrently.” Appellant timely appealed.
II.

ANALYSIS

In appellant’s sole issue, he argues the trial
court “erred in refusing to suppress the surveillance
video evidence because the warrant affidavit failed
to set forth facts sufficient to establish probable
cause that surveillance video or surveillance equipment would be located at the place to be searched.”
Appellant argues that because the police officer’s affidavit failed to establish probable cause, the officer’s
search for surveillance video or surveillance equipment violated the Fourth Amendment of the United
States Constitution, article I, section 9, of the Texas
Constitution, and chapter 18 of the Texas Code of
Criminal Procedure.
A. Standing
As a threshold matter, we address whether appellant had standing to challenge the lawfulness of the
search. In order to challenge a search and seizure under the United States Constitution, the Texas Constitution or the Texas Code of Criminal Procedure, a
party must ﬁrst establish standing. Pham v. State, 324
S.W.3d 869, 874 (Tex. App.—Houston [14th Dist.] 2010,
pet. ref’d) (citing Villarreal v. State, 935 S.W.2d 134, 138
(Tex. Crim. App. 1996)). The defendant who challenges

App. 37
the search has the burden to establish standing. See
State v. Betts, 397 S.W.3d 198, 203 (Tex. Crim. App.
2013); Villarreal, 935 S.W.2d at 138.
Standing is a question of law that may be raised
by this court sua sponte. Kothe v. State, 152 S.W.3d 54,
60 (Tex. Crim. App. 2004). A “reviewing court may
properly sustain the trial court’s denial [of a motion to
suppress] on the ground that the evidence failed to establish standing as a matter of law, even though the
record does not reﬂect that the issue was ever considered by the parties or the trial court.” Wilson v. State,
692 S.W.2d 661, 671 (Tex. Crim. App. 1984) (op. on
reh’g). However, the State may forfeit standing issues
“through its assertions, concessions, and acquiescence
in the course of litigation.” State v. Klima, 934 S.W.2d
109, 110 n.1 (Tex. Crim. App. 1996); see also Wilson,
692 S.W.2d at 668 (citing Steagald v. United States, 451
U.S. 204, 101 S.Ct. 1642, 1646, 68 L.Ed.2d 38 (1981)).
“Although we defer to the trial court’s factual ﬁndings
and view them in the light most favorable to [appellant], we review the legal issue of standing de novo.”
Kothe, 152 S.W.3d at 59.
A defendant may establish standing through an
expectation of privacy approach or an intrusion-uponproperty approach. See State v. Bell, 366 S.W.3d 712,
713 (Tex. Crim. App. 2012) (citing United States v.
Jones, 565 U.S. 400, 132 S.Ct. 945, 949-50, 181 L.Ed.2d
911 (2012)); Williams v. State, 502 S.W.3d 254, 258
(Tex. App.—Houston [14th Dist.] 2016, pet. ref ’d)
(citing Florida v. Jardines, 569 U.S. 1, 133 S.Ct. 1409,
1414, 185 L.Ed.2d 495 (2013)); Jones, 132 S.Ct. at

App. 38
949-51; and State v. Huse, 491 S.W.3d 833, 839-40
(Tex. Crim. App. 2016). The Court of Criminal Appeals
has not yet addressed what legal standard should
be applied in determining whether a defendant has
standing to contest that a search was unreasonable
under an intrusion-upon-property theory. Williams,
502 S.W.3d at 260. This court has analyzed standing
under an intrusion-upon-property theory using the
standard applicable to the reasonable-expectation-ofprivacy theory.9 Id. at 261. This court has alternatively
analyzed standing using a narrower standard: “whether
[a defendant] had a sufﬁcient proprietary or possessory interest in the place or object searched.” Id.
In this case, evidence offered by the State demonstrated that appellant had a sufﬁcient proprietary or
possessory interest in Dreams Auto Customs to have
9

To demonstrate a legitimate expectation of privacy, a defendant must show: (1) he had a subjective expectation of privacy
in the place invaded, and (2) that society is prepared to recognize
that expectation as objectively reasonable. Betts, 397 S.W.3d at
203. In considering whether a defendant has demonstrated an objectively reasonable expectation of privacy, courts examine the totality of the circumstances surrounding the search, including:
(1) whether the accused had a property or possessory interest in
the place invaded; (2) whether he was legitimately in the place
invaded; (3) whether he had complete dominion or control and the
right to exclude others; (4) whether, before the intrusion, he took
normal precautions customarily taken by those seeking privacy;
(5) whether he put the place to some private use; and (6) whether
his claim of privacy is consistent with historical notions of privacy. Id. at 203-04 (citing Granados v. State, 85 S.W.3d 217, 223
(Tex. Crim. App. 2002); and Villarreal, 935 S.W.2d at 138). This
is a non-exhaustive list of factors, and no one factor is dispositive.
Id. at 204 (citing Granados, 85 S.W.3d at 223).

App. 39
standing to challenge the search. Arnold testiﬁed that
he researched Dreams Auto Customs as part of his investigation and determined that appellant and his
wife, Charese, were owners of the business. Arnold testiﬁed that when he was unable to identify information
involving the owner of the van, he “focused on the next
available lead, which was researching the owners of
the business, Nathan Foreman.” The State introduced
as evidence a ﬁling with the county clerk’s ofﬁce listing
Charese as the owner of the business. The State also
introduced as evidence the Texas marriage license of
Charese and appellant. In a community property state
such as Texas, a spouse is presumed to have an ownership interest in any business owned by his spouse during the marriage. Tex. Fam. Code Ann. § 3.003(a) (West
2018); Marriage of O’Brien, 436 S.W.3d 78, 85 (Tex.
App.—Houston [14th Dist.] 2014, no pet.); see also U.S.
v. Ghali, 317 F. Supp. 2d 708, 713 (N.D. Tex. 2004) (“Defendant’s legal interest in the business arising from his
marriage is sufﬁcient to give Defendant standing under the Fourth Amendment to challenge searches of
packages. . . .”). Hufstedler testiﬁed that a tote bag full
of mail and papers was found in a storage room inside
the auto shop, and that the mail was addressed to Nathan Foreman.
Evidence offered by the State also demonstrated
that appellant had a sufﬁcient proprietary or possessory interest in the computer to have standing to challenge the search. In the middle of trial, in a rehearing
of appellant’s motion to suppress outside the presence

App. 40
of the jury, Arnold testiﬁed that the computer systems
belonged to Nathan Foreman:
Appellant’s trial counsel: Okay. There is
reference [in the search warrant afﬁdavit] to
the computer databases being searched for
Foreman’s—Foreman’s connection to Dreams
Auto, correct?
Ofﬁcer Arnold: Yeah, they were Foreman’s
computer systems.
Under the narrower legal standard applicable to
the intrusion-upon-property theory of standing, the
State fulﬁlled appellant’s burden to show that he had
a sufficient proprietary or possessory interest in
Dreams Auto Customs and the computer systems.
See Williams, 502 S.W.3d at 261 (“[T]he standard
would be whether the person had a sufﬁcient proprietary or possessory interest in this place or object
searched.”); Wilson, 692 S.W.2d at 671 (“The prosecutor
satisﬁed appellant’s burden of producing evidence on
the issue when he cross-examined appellant.”). Consequently, we conclude that appellant has standing to
challenge the search.
Even if this standard were not met, the State forfeited standing issues through its “assertions, concessions, and acquiescence in the course of litigation.” See
Wilson, 692 S.W.2d at 668. As noted above, Arnold testiﬁed appellant was the owner of the business and the
computer. In addition, the prosecutor conceded appellant was the owner of the auto shop in opening
argument at trial, stating, “You’ll hear testimony that

App. 41
Richard and Moses showed up at around 11:30 that
morning to Dreams Custom Auto [sic], a body shop
that’s owned by Nathan Foreman.” The State did not
challenge or raise any fact issue concerning appellant’s
standing throughout the course of litigation. The State
did not challenge appellant’s standing at any of the
three hearings on appellant’s motion to suppress. The
State did not argue that appellant was not the owner
of Dreams Auto Customs or the computer at these
hearings or at trial. There was no testimony or other
evidence presented showing that appellant did not own
the business or the computer. There is nothing in the
record which makes it apparent that appellant did not
have standing to contest the evidence. Id. Therefore,
the State forfeited the issue through its “assertions,
concessions, and acquiescence.” See id.
Having concluded that appellant has standing to
challenge the search, we consider his issue.
B. Probable cause and reasonable inferences
We normally review a trial court’s motion-to-suppress ruling under a bifurcated standard of review, under which we give almost total deference to the trial
court’s ﬁndings as to historical facts and review de
novo the trial court’s application of the law. State v.
McLain, 337 S.W.3d 268, 271 (Tex. Crim. App. 2011).
But, when the trial court determines probable cause to
support the issuance of a search warrant, there are no
credibility calls; rather, the trial court rules based on
what falls within the four corners of the afﬁdavit. Id.

App. 42
When reviewing a magistrate’s decision to issue a warrant, appellate courts as well as trial courts apply a
highly deferential standard of review because of the
constitutional preference for searches conducted under
a warrant over warrantless searches. Id. As long as the
magistrate had a substantial basis for concluding that
probable cause existed, we will uphold the magistrate’s
probable-cause determination. Id. We are not to view
the afﬁdavit through hypertechnical lenses; instead,
we must analyze the afﬁdavit with common sense, recognizing that the magistrate may draw reasonable inferences from the facts and circumstances contained in
the afﬁdavit’s four corners. Id. When in doubt, we defer
to all reasonable inferences that the magistrate could
have made. Id. at 272.
Appellant argues the trial court “erred in refusing
to suppress the surveillance video evidence because
the warrant afﬁdavit failed to set forth facts sufﬁcient
to establish probable cause that surveillance video or
surveillance equipment would be located at the place
to be searched.”
Article 18.02 of the Code of Criminal Procedure
enumerates the types of items that may be searched
for and seized pursuant to a search warrant. A video
surveillance system falls under the general scope of article 18.02(a)(10): “property or items . . . constituting
evidence of an offense or constituting evidence tending
to show that a particular person committed an offense.” See Tex. Code Crim. Proc. art. 18.02(a)(10) (West
2018).

App. 43
Property subject to seizure under article 18.02(a)(10)
is often referred to as “mere evidence.” Jennings v.
State, 531 S.W.3d 889, 893 (Tex. App.—Houston [14th
Dist.] 2017, pet. ref ’d). Mere evidence is evidence connected with a crime, but does not consist of fruits, instrumentalities, or contraband. See id. at 893 n.1.
Accordingly, a warrant issued under article 18.02(a)(10)
is known as an “evidentiary search warrant” or a “mere
evidentiary search warrant.” Id. at 893. Generally, to
obtain a search warrant for “mere evidence” under article 18.02(a)(10), there must be a sworn afﬁdavit setting forth sufﬁcient facts to establish probable cause
that (1) a speciﬁc offense has been committed, (2) the
speciﬁcally described property or items that are to be
search for or seized constitute evidence of that offense
or evidence that a particular person committed that offense, and (3) the property or items constituting evidence to be searched for or seized are located at or
on the particular person, place, or thing to be
searched. Tex. Code Crim. Proc. art. 18.01(c) (West
2018). However, “[i]f a warrant authorizes a search for
both ‘mere evidence’ and items listed under another
ground for search and seizure, the warrant is not a
mere-evidentiary search warrant,” and “the additional
ﬁndings under (a)(10) are not required.” Jennings, 531
S.W.3d at 893; see Zarychta v. State, 44 S.W.3d 155
(Tex. App.—Houston [14th Dist.] 2001, pet. ref ’d).
The warrant in this case is not a “mere evidence”
warrant because in addition to authorizing a search
for evidence, it also authorized a search for the “instrumentalities of the crime including ﬁrearm(s) and

App. 44
ballistics evidence; gasoline container(s), lighter(s),
tape, zip tie(s), van. . . .” As such, additional ﬁndings
are not required under 18.02(a)(10). See Jennings, 531
S.W.3d at 893.
Nonetheless, the Fourth Amendment requires
that a warrant afﬁdavit establish probable cause to believe a particular item is at a particular location. See
id. at 892. The core of the Fourth Amendment’s warrant clause and article I, section 9, of the Texas Constitution is that a magistrate may not issue a search
warrant without ﬁrst ﬁnding probable cause that a
particular item will be found in a particular location.
State v. Duarte, 389 S.W.3d 349, 354 (Tex. Crim. App.
2012); see U.S. Const. amend. IV; Tex. Const. art. I, § 9.
Under the Fourth Amendment, probable cause exists
when, under the totality of the circumstances, there is
a fair probability or substantial chance that contraband or evidence of a crime will be found at a speciﬁed
location. Bonds v. State, 403 S.W.3d 867, 873 (Tex.
Crim. App. 2013); Rodriguez v. State, 232 S.W.3d 55, 60
(Tex. Crim. App. 2007) (citing Illinois v. Gates, 462 U.S.
213, 238, 103 S.Ct. 2317, 76 L.Ed.2d 527 (1983)); Long
v. State, 525 S.W.3d 351, 366 (Tex. App.—Houston
[14th Dist.] 2017, pet. ref ’d) (citing Gates, 462 U.S. at
238, 103 S.Ct. 2317). The facts stated in a search-warrant afﬁdavit must be related so closely to the time of
the warrant’s issuance that a ﬁnding of probable cause
is justiﬁed. McLain, 337 S.W.3d at 272.
This standard is “ﬂexible and nondemanding.”
Bonds, 403 S.W.3d at 873; Rodriguez, 232 S.W.3d at 60.
Because of the ﬂexibility in this standard, neither

App. 45
federal nor Texas law deﬁnes precisely what degree of
probability sufﬁces to establish probable cause. Rodriguez, 232 S.W.3d at 61.
Probable cause must be found within the “four corners” of the afﬁdavit supporting the search warrant afﬁdavit. McLain, 337 S.W.3d at 271. Magistrates are
permitted to draw reasonable inferences from the facts
and circumstances contained within the four corners of
the afﬁdavit. Davis v. State, 202 S.W.3d 149, 154 (Tex.
Crim. App. 2006). However, “[w]hen too many inferences must be drawn, the result is a tenuous rather
than substantial basis for the issuance of a warrant.”
Id. at 157. Probability cannot be based on mere conclusory statements of an afﬁant’s belief. Rodriguez, 232
S.W.3d at 61. A reviewing court’s assessment of the afﬁdavit’s sufﬁciency is limited to “a reasonable reading”
within the four corners of the affidavit while simultaneously recognizing the magistrate’s discretion to
draw reasonable inferences. Duarte, 389 S.W.3d at 354.
The Court of Criminal Appeals has held that inferences were reasonably made in several different contexts:
• Instrumentalities of the crime. In Ramos v.
State, 934 S.W.2d 358, 363 (Tex. Crim. App. 1996),
the Court explained that in a murder case, a magistrate could reasonably infer that a weapon could
be found at the residence where the murder took
place.
• Possession of contraband. In Rodriguez,
232 S.W.3d at 62-63, the Court held that a

App. 46
magistrate could reasonably infer that a garage
contained drugs based on information that a man
went to the garage, walked out with a package,
threw the package in his car, and was later
stopped with a package containing drugs. See also
Moreno v. State, 415 S.W.3d 284, 288 (Tex. Crim.
App. 2013) (involving similar inference based on
information from conﬁdential informant).
• Skills and training. In Davis, 202 S.W.3d at
155-57, the Court held that a magistrate could
reasonably infer an ofﬁcer was qualiﬁed to recognize the odor of methamphetamine, even though
the afﬁdavit was silent as to the ofﬁcer’s skills and
training.
• Time. In State v. Jordan, 342 S.W.3d 565, 571
(Tex. Crim. App. 2011), a case involving a warrant
to seize blood in connection with a suspected DWI,
the ofﬁcer did not indicate the precise time of his
observations, but the Court held that a magistrate
could reasonably infer that the ofﬁcer’s observations occurred on the same date that the offense
was alleged to have occurred, and that this information was not stale because the afﬁdavit was
presented less than four hours after midnight. See
also Crider v. State, 352 S.W.3d 704, 710-11 (Tex.
Crim. App. 2011) (reaching different conclusion
where window of time was much greater); McLain,
337 S.W.3d at 273 (holding that trial and appellate
courts should have deferred to magistrate’s implied ﬁnding that ambiguous phrase in afﬁdavit
referred to time that informant made his observations).

App. 47
• Credibility of an anonymous informant.
In Flores v. State, 319 S.W.3d 697, 703 (Tex. Crim.
App. 2010), the Court held that a magistrate could
reasonably conclude an anonymous informant had
some familiarity with the defendant based on corroborating evidence and the “doctrine of chances.”
See also Duarte, 389 S.W.3d at 359-60 (tip from
ﬁrst-time conﬁdential informant was not reliable
where there was no detail or corroboration).
• Personal knowledge. In Jones v. State, 568
S.W.2d 847, 855 (Tex. Crim. App. 1978), the Court
held that a magistrate could reasonably infer that
information conveyed in the passive voice was information within the personal knowledge of the afﬁant.
The parties have not cited, nor have we found, a
case in which the Court of Criminal Appeals has determined under what circumstances a magistrate could
reasonably infer that an electronic device exists in a
particular location. This court has required speciﬁc
facts to support an inference that those devices exist
before we have allowed seizure or search of electronic
devices pursuant to a warrant. This is demonstrated
by our jurisprudence surrounding the searches of computers/cameras and cellphones.
Many of these cases address the second requirement of article 18.01(c), whether “the specifically described property or items that are to be searched for
or seized constitute evidence of that offense or evidence that a particular person committed that offense,” see Tex. Code Crim. Proc. art. 18.01(c), rather
than whether a particular item will be found in a

App. 48
particular location. However, both considerations require that the property or items at issue exist. In this
case, appellant’s issue centers around whether probable cause existed that the surveillance video or surveillance equipment was located at the auto shop, not
whether probable cause existed that the surveillance
video or surveillance equipment constituted evidence
of the charged offenses or evidence that appellant
committed the offenses. Nonetheless, the magistrate
inferred not only that the surveillance video and surveillance equipment was at a speciﬁc location (inside
of the auto shop); it also inferred that the surveillance
video and surveillance equipment existed. Therefore,
to the extent cases addressing the second requirement
of article 18.01(c) involve inferences regarding the existence of property or items subject to search, we ﬁnd
them persuasive.
Generally, to support a search warrant for a computer, we have held there must be some evidence that
a computer was directly involved in the crime. See Ex
parte Jones, 473 S.W.3d 850, 856-57 (Tex. App.—Houston [14th Dist.] 2015, pet. ref ’d) (defendant subscribed to commercial child pornography website);
Ryals v. State, 470 S.W.3d 141, 143, 146 (Tex. App.—
Houston [14th Dist.] 2015, pet. ref ’d) (defendant told
undercover ofﬁcer that he would use computer to make
fake IDs); Porath v. State, 148 S.W.3d 402, 409 (Tex.
App.—Houston [14th Dist.] 2004, no pet.) (defendant
met complainant in internet chat room).
When there is no evidence that a computer was directly involved in the crime, more is generally needed

App. 49
to justify a computer search. For example, in Checo v.
State, 402 S.W.3d 440 (Tex. App.—Houston [14th Dist.]
2013, pet. ref ’d), the defendant kidnapped a child and
took her to a house, where he showed her adult pornography on a desktop computer. Id. at 444. The defendant
then took the complainant to another room, where he
attempted to assault her. Id. The complainant observed a laptop in that room that was set up to take
pictures and videos. Id. The afﬁant obtained a warrant
to search for child pornography (which the complainant had not been shown), and the defendant moved to
suppress the results of the search, arguing that there
was no information in the ofﬁcer’s afﬁdavits that the
defendant photographed or videotaped the complainant, or other information independently linking him to
child pornography. Id. at 449. We rejected that argument, noting afﬁdavit testimony from the ofﬁcer that
those who engage children in a sexually explicit manner often collect child pornography on their computers.
Id. Given this level of factual speciﬁcity, we held that
the search warrant was valid. Id. at 449-50.
Another illustrative case is Aguirre v. State, 490
S.W.3d 102 (Tex. App.—Houston [14th Dist.] 2016, no
pet.). There, a child complainant described how the defendant would photograph her while they had sex. Id.
at 106-07. The complainant’s mother stated that the
defendant had a laptop that he did not allow anyone to
use. Id. at 107. The police ofﬁcer’s afﬁdavit testimony
set forth that, based on her training and expertise,
child molesters will often use their computers to store
and exchange sexually explicit images of children. Id.

App. 50
We held that the afﬁdavit was sufﬁcient to support a
search of the defendant’s computer. Id. at 113-14.
Likewise, an afﬁdavit offered in support of a warrant to search the contents of a cellphone must usually
include facts that a cellphone was used during the
crime or shortly before or after. In Aguirre, we also held
that the afﬁdavit was sufﬁcient to search all of the defendant’s cellphones where the complainant said that
a particular cellphone was used to photograph her and
that the defendant had used instant messenger to send
her a photograph of his penis. Id. at 116-17. Based on
opinion testimony included in the afﬁdavit that pedophiles share pornography through electronic media,
we concluded that all of the cellphones could be
searched. Id.
In Walker v. State, 494 S.W.3d 905, 908-09 (Tex.
App.—Houston [14th Dist.] 2016, pet. ref ’d), we concluded that there was probable cause to search a defendant’s cellphone when the afﬁdavit stated that the
defendant admitted to shooting the complainant, and
there was other information that the defendant and
the complainant knew each other, communicated by
cellphone, and exchanged messages and phone calls
around the time of the shooting.
In Humaran v. State, 478 S.W.3d 887, 893-94 (Tex.
App.—Houston [14th Dist.] 2015, pet. ref ’d), the defendant made a “disturbance” call to police and there
was evidence that she and a co-defendant had murdered a person and set the body on ﬁre. We concluded

App. 51
that the facts were sufﬁcient to support a search of her
cellphone. Id. at 899-900.
With these general principles in mind, we turn to
the afﬁdavit in this case. We review the afﬁdavit realistically and with common sense; “a reviewing court
must uphold the magistrate’s decision so long as the
magistrate had a substantial basis for concluding that
probable cause existed.” Duarte, 389 S.W.3d at 354.
Our focus cannot be on what other facts “could or
should have been included in the afﬁdavit,” but rather
must be “on the combined logical force of facts that actually are in the afﬁdavit.” Id. at 354-55. “The Supreme
Court has repeatedly reminded reviewing courts that
they should ‘not invalidate the warrant by interpreting
the afﬁdavit in a hypertechnical, rather than a commonsense, manner.’ ” Rodriguez, 232 S.W.3d at 59. The
allegations in the afﬁdavit are sufﬁcient if they would
“justify a conclusion that the object of the search is
probably on the premises.” Ramos, 934 S.W.2d at 363
(quoting Cassias v. State, 719 S.W.2d 585, 587 (Tex.
Crim. App. 1986)). We defer to all reasonable inferences that the magistrate could have made. Duarte,
389 S.W.3d at 354.
We conclude that the afﬁdavit in this case failed to
establish probable cause that surveillance video or surveillance equipment existed and would be located at
Dreams Auto Customs. The afﬁant also provided no
facts that a computer containing surveillance video
was involved in the crime, directly or indirectly, such
that the existence of surveillance video or surveillance

App. 52
equipment could be reasonably inferred.10 The afﬁdavit
did not reference any computers or computer hard
drives. “[A]udio/video surveillance video and/or video
equipment” was mentioned in the introductory paragraph of the afﬁdavit, but no facts were described to
support the conclusion that a video surveillance system existed at the body shop.11 Nor were facts included
from which it could reasonably be inferred that surveillance video or equipment would probably be found
at the shop.12
The State argues that surveillance cameras are
part of “everyday life,” and as such, the magistrate
could have reasonably inferred the existence of surveillance equipment in Dreams Auto Customs. Courts
10

The State cites Eubanks v. State, 326 S.W.3d 231 (Tex.
App.—Houston [1st Dist.] 2010, pet. ref ’d), a child sexual assault
case where the First Court of Appeals held that a magistrate
could infer that a computer was used in a crime based on the child
complainant’s testimony that she was photographed. We have not
followed Eubanks for that proposition. Nonetheless, compared to
the instant case, even Eubanks contained more facts from which
the magistrate could infer the existence of a computer. In Eubanks, the afﬁdavit recited the statement by the child complainant that she had been photographed, and the magistrate inferred
that a computer was used to store the photographs. Id. at 247-48.
In the instant case, the afﬁdavit did not refer to any statement by
complainants that the crimes against them had been videotaped.
11
For example, the afﬁdavit did not state that surveillance
cameras were visible on the exterior of the body shop, nor did it
state that cameras had been spotted inside the building.
12
Arnold and Hufstedler testiﬁed that they observed cameras mounted on the exterior of the strip center where the auto
shop was located; however, this observation was not included in
the afﬁdavit for the search warrant.

App. 53
have held that magistrates may rely on matters of
common knowledge in finding probable cause. Rodriguez, 232 S.W.3d at 64 (“As reviewing courts, we are
obliged to defer to the magistrate and uphold his
determination based upon all reasonable and commonsense inferences and conclusions that the afﬁdavit
facts support.”). For example, in Manuel v. State, the
afﬁant did not need to describe special training or experience to support the conclusion that speciﬁc clothing worn by a murder suspect would probably be found
at his residence, in part, because the court determined
that it was common knowledge that the defendant’s
clothing would be at a defendant’s home. 481 S.W.3d
278, 284-86 (Tex. App.—Houston [1st Dist.] 2015, pet
ref ’d) (“[C]ommon experience tells us that there is a
‘fair probability’ that clothing worn ‘a lot’ over a period
of years will be kept at a person’s residence.”).
The State asserts that “[a]n Amazon search or a
visit to Costco” will “reveal” that sophisticated surveillance systems are inexpensive. The State also offers a
chart of Westlaw search hits for “security camera” or
“surveillance camera” to demonstrate “[t]he ubiquity of
surveillance cameras in ordinary life.” But matters
that are common knowledge (i.e., that a person takes
his clothes off at home) do not need to be evidenced
through Amazon searches or charts of Westlaw search
hits. “Common knowledge consists of matter[s] ‘so well
known to the community as to be beyond dispute.’ ”
Cardona v. State, 134 S.W.3d 854, 859 (Tex. App.—Amarillo 2004, pet. ref ’d) (quoting Ritz Car Wash, Inc. v.
Kastis, 976 S.W.2d 812, 814 (Tex. App.—Houston [1st

App. 54
Dist.] 1998, pet. denied)). The presence of surveillance
video or equipment in an auto shop is not so well
known to the community as to be beyond dispute.
Moreover, if a magistrate is permitted to infer that
a video surveillance system was located in the auto
body shop without any facts supporting the existence
of that item, a magistrate could make those same inferences for a variety of items in any business.13 This
reasoning could lead to all computers and cellphones
being searchable for any type of video or picture that
could have recorded a crime, even though the afﬁant
provided no facts suggesting that a computer or cellphone existed. Such an inference goes too far and is
contrary to our cases requiring speciﬁc facts before a
search warrant is issued.
The State further argues that Dreams Auto Customs probably had a surveillance camera because it
was an auto shop that “from time to time” may be burgled by its own customers. As the State explains, the
shop “would ordinarily be in possession of its customers’ property, with each piece of property worth thousands or tens of thousands of dollars.” The State avers
that “the way a mechanic shop ensures that it is paid
for its work is to keep possession of cars until the customer pays” and an “owner might seek to surreptitiously recover it without the business’s knowledge.”
13

And, in this day and age, where a security system is
cheaply available for personal use, a magistrate could make those
same inferences for any home, too. Indeed, the State argues “that
people and businesses are increasingly likely to have surveillance
equipment” (emphasis added).

App. 55
None of this information was included in the afﬁdavit.
None of this information is “everyday life” knowledge.
While it may be reasonable to infer that a custom auto
shop contained expensive property, the additional inferences the State attributes to the magistrate are not
common knowledge and cannot be reasonably inferred.
The afﬁdavit contains no facts from which it can
be inferred that customers of custom auto shops attempt to steal their own cars “from time to time.” We
cannot say that it is common knowledge or well known
in the community that customers of custom auto shops
attempt to steal their own cars “from time to time.” The
afﬁdavit contains no facts from which it can be inferred
that auto shops run surveillance to prevent customers
from recovering their own vehicles. Common experience does not suggest that auto shops run surveillance
to prevent customers from recovering their own vehicles. This is not a commonsense reading of the afﬁdavit.
Courts allow magistrates to make reasonable inferences that often center on certain types of assumptions, but none of those assumptions has been the
existence of a video surveillance system or surveillance
video. None of the cases cited above or by the State
supports the inferential leap the State asks us to make.
Precedent from our own court with respect to computers and cellphones requires speciﬁc evidence that a
computer or cellphone was present during the commission of the crime, or that the facts of the type of crime
itself lead to the conclusion that a computer or cellphone was connected to the crime. The State has not

App. 56
presented any reason, and we see no reason, why we
should treat a case involving video surveillance systems and surveillance video differently.
The afﬁdavit in this case did not establish any
nexus between the criminal activity and the surveillance system. Cf. Bonds, 403 S.W.3d at 873. It cannot
be reasonably inferred from the face of the afﬁdavit
that surveillance equipment would be found in the
auto shop. See Rodriguez, 232 S.W.3d at 62. Consequently, the afﬁant provided insufﬁcient facts to support ﬁnding probable cause that a video surveillance
system was located at the body shop. See Cassias, 719
S.W.2d at 590 (“It is one thing to draw reasonable inferences from information clearly set forth within the
four corners of an afﬁdavit,” but a reviewing court may
not “read material information into an afﬁdavit that
does not otherwise appear on its face.”). For this reason, and for the reasons discussed below, the trial court
erred in denying appellant’s motions to suppress.
C. Plain view
In further support of his argument that ofﬁcers
lacked probable cause to seize the computer hard drive
containing video surveillance, appellant argues the
plain-view doctrine does not apply. Although commonly classiﬁed as an exception to the warrant requirement, the plain-view doctrine is not truly an
exception because the seizure of property in plain view
involves no invasion of privacy and is presumptively
reasonable. Walter v. State, 28 S.W.3d 538, 541 (Tex.

App. 57
Crim. App. 2000). If an item is in plain view, then neither its observation nor its seizure involves any invasion of privacy. Id. The rationale of the plain-view
doctrine is that, if contraband is left in open view and
is observed by a police ofﬁcer from a lawful vantage
point, there has been no invasion of a legitimate expectation of privacy and thus no “search” within the meaning of the Fourth Amendment. See Illinois v. Andreas,
463 U.S. 765, 771, 103 S.Ct. 3319, 77 L.Ed.2d 1003
(1983).
A seizure of an object is lawful under the plainview doctrine if three requirements are met. Keehn v.
State, 279 S.W.3d 330, 334 (Tex. Crim. App. 2009).
First, police ofﬁcers must lawfully be where the object
can be “plainly viewed.” Betts, 397 S.W.3d at 206 (citing
Keehn, 279 S.W.3d at 335). Second, the “incriminating
character” of the object in plain view must be “immediately apparent” to the police ofﬁcers. Id. Third, the ofﬁcials must have the right to access the object. Id.
Appellant challenges only the second prong. This
immediacy prong requires a showing of probable cause
that the item discovered is incriminating evidence; actual knowledge of the incriminating evidence is not required. Goonan v. State, 334 S.W.3d 357, 361 (Tex.
App.—Fort Worth 2011, no pet.) (citing Joseph v. State,
807 S.W.2d 303, 308 (Tex. Crim. App. 1991)); see State
v. Dobbs, 323 S.W.3d 184, 185, 189 (Tex. Crim. App.
2010). Probable cause exists when the known facts and
circumstances are sufﬁcient to cause a reasonable person to believe that contraband or evidence of a crime
will be found. Wiede v. State, 214 S.W.3d 17, 24 (Tex.

App. 58
Crim. App. 2007). Probable cause requires more than a
hunch and must be supported by facts. See id. If an additional and unjustiﬁed search is required to develop
probable cause, then the “incriminating character” of
the object in plain view is not “immediately apparent.”
See Dobbs, 323 S.W.3d at 189. If an ofﬁcer must manipulate, move, or inspect an object to determine whether
it is associated with criminal activity, then the “incriminating character” of the object could not be said to be
immediately apparent. See Arizona v. Hicks, 480 U.S.
321, 324-28, 107 S.Ct. 1149, 94 L.Ed.2d 347 (1987).
Appellant analogizes the facts of this case to the
facts of Arizona v. Hicks. In Hicks, police investigated
a shooting at the defendant’s apartment. 480 U.S. at
323, 107 S.Ct. 1149. In the process, they discovered stereo equipment that they suspected was stolen. Id. One
ofﬁcer recorded the serial numbers of the equipment,
but had to move some of the equipment in order to do
so. Id. The United States Supreme Court held that
moving the stereo equipment to view the serial numbers constituted a warrantless search. Id. at 327-28,
107 S.Ct. 1149.
The State contends that the plain-view exception
does apply. The State points out that ofﬁcers executing
the warrant “observed an external hard drive connected to a monitor that was showing a live surveillance feed from six cameras throughout the garage.”
The State argues that “anyone seeing a device capable
of recording and storing data connected to a surveillance system at a location where a crime occurred recently would have probable cause to believe the device

App. 59
would be evidence of a crime.” The State emphasizes
that the plain-view doctrine does not require certainty
that an object is evidence, only probable cause. In support of its argument, the State summarizes Arrick v.
State, 107 S.W.3d 710 (Tex. App.—Austin 2003, pet
ref ’d).
In Arrick, police believed that the defendant had
killed a former girlfriend and disposed of her body. Id.
at 719. Police obtained and executed a warrant to
search the appellant’s residence for, among other
things, the victim’s bloodstains. Id. at 716-17. The
Third Court of Appeals explained that the magistrate
who issued the warrant could have reasonably inferred
(1) that the appellant got blood on his clothing when
he shot the deceased and disposed of her body, and
(2) that bloodstained clothing might be found at the
appellant’s residence. The following month, police conducted a second search of the appellant’s residence
with consent. During this search, ofﬁcers seized two
pairs of the appellant’s shoes. The Third Court concluded the plain-view doctrine applied to the seizure of
the shoes, explaining:
We have already held in our discussion of the
search warrants that the
police had probable cause to believe that appellant fatally shot [his former girlfriend] and
disposed of her body. They also had probable
cause to believe that [her] blood might be
found on appellant’s clothing in [appellant’s
residence]. Because the police had probable
cause to believe that [the deceased’s] blood

App. 60
might be found on appellant’s shoes, their
value as evidence was immediately apparent.
Id. at 719. The State points out that this was “despite
the fact that police did not see blood on the shoes . . .
[or] conduct a blood test on the shoes until after they
were seized.” Arrick is distinguishable as it involved
reasonable inferences applied to clothing.14 It is common knowledge that shoes are worn like other clothing.
We conclude that, in this case, the “incriminating
character” of the computer hard drive containing video
surveillance was not “immediately apparent” under
the plain-view doctrine because the State did not establish that, at the time of the seizure, sufﬁcient facts
and circumstances existed to warrant a person of reasonable prudence to believe the computer hard drive
contained evidence. Nothing in the record suggests
that the incriminating surveillance video was playing
at the time the search warrant was executed. It did not
become “immediately apparent” that the computer
contained evidence of the crime until after further
search of appellant’s computer hard drive. The hard
drive was taken to police forensics for inspection to determine whether it was associated with criminal activity.

14

Even if Arrick did present analogous facts, as an opinion
of our sister court, Arrick is not controlling authority. See Jankowiak v. Allstate Prop. & Cas. Ins. Co., 201 S.W.3d 200, 207-08
(Tex. App.—Houston [14th Dist.] 2006, no pet.).

App. 61
The fact that the computer hard drive appeared to
be connected to a surveillance screen in the shop where
the offenses took place was not enough to formulate a
probable cause determination. No other facts or circumstances linked the computer hard drive to the
charged offenses. Trial testimony of the ofﬁcers who executed the warrant, Arnold and Hufstedler, may have
established that the ofﬁcers believed the computer
hard drive contained a surveillance system and surveillance video was stored on the computer hard drive.
It did not establish they believed the video stored
would probably evidence the offenses (which had taken
place two weeks prior to the search).
At the ﬁrst hearing on appellant’s motion to suppress, Hufstedler testiﬁed on direct that his “assumption was that [the computer hard drive at issue] was
attached to a surveillance system. . . . My assumption
was that the [hard drive] was recording or at one time
been used to record video in the location.” At trial, Arnold testiﬁed that he had reason to believe the hard
drive contained surveillance and he “hope[d]” the surveillance would constitute evidence: “we had reason to
believe that [particular hard drive] was actually a surveillance system that was hopefully going to depict
what video was collected in there.”
The fact that ofﬁcers seized two other computer
hard drives even though they could not tell what those
hard drives were being used for further undermines a
probable cause determination. Appellant’s counsel
questioned Hufstedler about the seizure of the other
two computers:

App. 62
Q. And then why did you seize 2 and 3? They
weren’t connected to any audio video information.
A. I would not know whether they had audio
video information on it, until it was seized and
examined by the forensics lab.
Q. Right. You had no information that there
was any audio video information on any three
of those hard drives, correct?
A. I didn’t know if the hard drive on the ﬂoor
that was connected to the monitor was actually recording at that time, but my assumption [sic] that it was.
Q. You’re saying you assumed. But my speciﬁc question to you is that on the day you
asked for this warrant you did not have information to believe that there were any hard
drives with audio video information in this ofﬁce.
A. Well, there were cameras on the back of
the building. So we knew that there were cameras in the location.
...
Q. So, it’s not in your warrant. So, in your
warrant you didn’t state that you had information about audio surveillance cameras, correct?
A. We didn’t know if those cameras were
hooked up to that particular building. It’s a
long strip center.

App. 63
Q. And the question is you didn’t say anything about it?
A.

We didn’t say anything about it. No, sir.

Q. Because you didn’t know if it existed, correct?
A.

We weren’t sure if it existed or not.

...
Q. In fact, you didn’t have any information
about what was on there. You previously
stated you had no idea what was on them.
A.

Correct.

On re-direct, the State questioned Hufstedler
broadly about whether he had a reasonable belief that
there “might be” surveillance video on “any of ” the
hard drives, and Hufstedler responded that he and Arnold determined there “might be a possibility”:
Q. Ofﬁcer Hufstedler, did you have a reasonable belief that there might be surveillance
video on any of those hard drives?
A.

Yes.

Q.

What was that based on?

A. Based on the fact there was a monitor
when we walked in and we could see actual
video of live feed of what was going on at the
location. There were cameras, obviously, there
since we were seeing that, so we determined
that there might be a possibility that video
had been taken.

App. 64
When the ofﬁcers viewed the computer hard
drives, they believed that the hard drives contained a
surveillance system. The ofﬁcers also “assumed” that
surveillance system “might” have recorded video at one
time. None of the ofﬁcers’ testimony indicated that the
ofﬁcers believed the hard drive at issue would contain
video surveillance from the time of the offenses or otherwise constitute evidence of the offenses.
Rather, this case is akin to Nicholas v. State, 502
S.W.2d 169 (Tex. Crim. App. 1973).15 In Nicholas, police
arrested the defendant in his home after being informed that he was wanted on a fugitive warrant in
New Mexico. Id. at 170. In the defendant’s home, the
ofﬁcers observed several photography negatives, which
depicted the defendant having intercourse with an
eleven-year-old girl. Id. at 171. The Texas Court of
Criminal Appeals held that the negatives were not
properly seized because the ofﬁcers had to pick up
the negatives and hold them to the light before being
able to determine their incriminating character. Id. at
171-72. The Court explained, “the ofﬁcers had, prior to
15

Nicholas was decided before Texas v. Brown, 460 U.S. 730,
741-43, 103 S.Ct. 1535, 75 L.Ed.2d 502 (1983), wherein a plurality
of the United States Supreme Court reinterpreted the phrase “immediately apparent” to mean not an unduly high degree of certainty as to the incriminating character of the evidence, but
rather probable cause to associate the property with criminal activity. However, Nicholas was also cited with approval by the
Court of Criminal Appeals in Joseph, a case applying the reinterpreted plain-view standard. See Joseph, 807 S.W.2d at 309 (relying on Nicholas in support of its conclusion that ofﬁcer had no
probable cause to search contents of letter where search warrant
authorized seizure of marijuana).

App. 65
examining the negatives, neither knowledge nor mere
suspicion of an offense related to the ﬁlm. What was in
‘plain view’ in the apartment was not evidence of any
crime or criminal behavior.” Id. at 172.
Because an additional and unjustiﬁed search was
required to develop probable cause with respect to the
computer hard drive at issue, the “incriminating character” of the hard drive was not “immediately apparent.” See Dobbs, 323 S.W.3d at 185, 189. Consequently,
the plain-view doctrine did not apply to the seizure of
appellant’s computer. We sustain appellant’s sole issue
on appeal.
D. Harm analysis
We next consider whether the trial court’s error
is reversible. Constitutional errors are reversible
unless the appellate court determines the error did
not contribute to the conviction or punishment beyond a reasonable doubt. Tex. R. App. P. 44.2(a). Nonconstitutional errors are reversible if they affected a
defendant’s substantial rights. Tex. R. App. P. 44.2(b).
Appellant contends the error violated the Fourth
Amendment of the United States Constitution and article I, section 9, of the Texas Constitution, and therefore is constitutional error. The State contends that
this court should apply the non-constitutional error
harm standard because, according to the State, the
good-faith exception articulated in United States v.
Leon, 468 U.S. 897, 104 S.Ct. 3405, 82 L.Ed.2d 677 (1984),

App. 66
applies such that the admission of the surveillance
video was not barred by the Fourth Amendment.16
We need not decide whether Leon applies in this
case or whether its application requires this court to
apply the less stringent harm standard.17 Even assuming that Leon applies and this required application of
the harm standard for non-constitutional error, harm
is established.
“A substantial right is affected when the error had
a substantial and injurious effect or inﬂuence in determining the jury’s verdict.” Thomas v. State, 505 S.W.3d
916, 926 (Tex. Crim. App. 2016) (quoting King v. State,
953 S.W.2d 266, 271 (Tex. Crim. App. 1997)). An error
16

The State concedes that Texas’s statutory exclusionary
rule, Texas Code of Criminal Procedure article 38.23, requires exclusion where a warrant lacks probable cause. Tex. Code Crim.
Proc. Ann. art. 38.23(b) (West 2018). Therefore, even if Leon’s
good-faith exception applied, the video surveillance in this case
should have been excluded pursuant to article 38.23 because the
warrant was lacking probable cause with regard to surveillance.
The State argues that even if article 38.23 required exclusion, the
application of Leon means this court should apply the harm
standard for non-constitutional error rather than the standard for
constitutional error.
17
We note that the State does not address the alleged violation of the Texas Constitution. In addition, the United States Supreme Court has indicated the Leon exception may not apply
where, as here, the ofﬁcer who executed the invalid warrant also
prepared the warrant. Groh v. Ramirez, 540 U.S. 551, 564, 124
S.Ct. 1284, 157 L.Ed.2d 1068 (2004) (“[B]ecause petitioner himself prepared the invalid warrant, he may not argue that he reasonably relied on the Magistrate’s assurance that the warrant
contained an adequate description of the things to be seized and
was therefore valid.”).

App. 67
had a substantial and injurious effect or inﬂuence if it
substantially swayed the jury’s judgment. In determining whether error had a substantial and injurious effect or inﬂuence on the verdict, we must review the
error in relation to the entire proceeding. Haley v.
State, 173 S.W.3d 510, 518 (Tex. Crim. App. 2005). “[I]f
the appellate court, after examining the record as a
whole, has fair assurance that the error did not inﬂuence the jury, or had but a slight effect,” the error is
harmless. Johnson v. State, 967 S.W.2d 410, 417 (Tex.
Crim. App. 1998). If the appellate court is unsure
whether the error affected the outcome, that court
should treat the error as harmful. Webb v. State, 36
S.W.3d 164, 183 (Tex. App.—Houston [14th Dist.] 2000,
pet ref ’d).
Given the record before us, we cannot say with fair
assurance that the erroneous admission of the surveillance video did not affect appellant’s substantial
rights. The surveillance video was a central piece of evidence in the case. Other than information provided by
complainants, admitted con artists, the video was the
only strong evidence showing appellant’s involvement
in the offenses. Although the State presented other
compelling evidence of the scene on the highway and
of complainant’s injuries, none of this evidence showed
appellant’s involvement in the aggravated robbery and
aggravated kidnapping of complainants. The State relied primarily on the video in making its closing arguments. In addition, the trial court explicitly stated that
the video evidence impacted appellant’s sentencing.

App. 68
Under these circumstances, we must reverse the convictions.
We reverse appellant’s convictions and remand
the case for a new trial.
III. CONCLUSION
The trial court erred in denying appellant’s motion
to suppress the surveillance video found on the computer hard drive seized from Dreams Auto Customs.
Because this evidence strongly implicated appellant,
we conclude that the trial court’s error had a substantial and injurious effect or inﬂuence in determining the
jury’s verdicts and the trial court’s sentences. We reverse the trial court’s judgments and sentences and remand for further proceedings consistent with this
opinion.
/s/ Marc W. Brown
Justice

Dissent
EN BANC DISSENTING OPINION
Ubiquitous. Surveillance cameras inside commercial properties have become ubiquitous. Convenience
stores. Doggy daycare facilities. Casinos. Retail checkout lines. Interior commercial video surveillance systems, designed to prevent internal theft, vandalism,
and other forms of criminal activity from occurring on

App. 69
an owner’s property or to catch those responsible for
the activity, are everywhere.
Yet, the majority holds that it was unreasonable
for a magistrate to conclude that surveillance video or
equipment had been installed inside the Dreams Auto
Customs building. Because I ﬁnd that this inference,
supported by the facts and circumstances articulated
in the search warrant afﬁdavit, is reasonable, I respectfully dissent. I would hold that the trial court did
not err in denying appellant’s motion to suppress and
afﬁrm the trial court’s judgment.
The Code of Criminal Procedure allows the issuance of a search warrant to seize property or items that
constitute evidence of an offense. State v. Dugas, 296
S.W.3d 112, 115 (Tex. App.—Houston [14th Dist.] 2009,
pet. ref ’d) (citing Tex. Code Crim. Proc. art. 18.02(10)).
Before a search warrant may issue, a sworn afﬁdavit
must be ﬁled setting forth sufﬁcient facts to show probable cause that (1) a speciﬁc offense has been committed; (2) the speciﬁcally described property or items to
be searched for or seized constitute evidence of that offense or evidence that a particular person committed
that offense; and (3) the property or items constituting
such evidence are located at or on the particular person, place, or thing to be searched. Id. at 115-16 (citing
Tex. Code Crim. Proc. art. 18.01(c)). Probable cause exists, when under the totality of the circumstances,
there is a fair probability or substantial chance that
evidence of a crime will be found at the speciﬁed location. Flores v. State, 319 S.W.3d 697, 702 (Tex. Crim.
App. 2010).

App. 70
The duty of a reviewing court, including a reviewing trial court, is simply to ensure that a magistrate
had a substantial basis for concluding that probable
cause existed. Id. Under the “substantial basis” standard of review, the reviewing court is not a “rubber
stamp” for the magistrate’s ruling, but “the magistrate’s decision should carry the day in doubtful or
marginal cases, even if the reviewing court might
reach a different result upon de novo review.” Id. (internal quotation marks & citation omitted).
A magistrate may interpret an afﬁdavit in a nontechnical, common-sense manner, drawing reasonable
interferences solely from the facts and circumstances
contained within its four corners. Bonds v. State, 403
S.W.3d 867, 873 (Tex. Crim. App. 2013). We do not invalidate a warrant by interpreting the afﬁdavit in a
technical, rather than a common-sense, manner. See
id. Indeed, when in doubt, we defer to all reasonable
inferences that the magistrate could have made. See
id.
In this case, the afﬁant stated that he “ha[d] reason to believe and [did] believe” that evidence of the
offenses would be found at Dreams Auto Customs, including, among other things, audio/video surveillance
equipment. The afﬁdavit describes in detail a number
of facts about Dreams Auto Customs, such as the windows and front door of the business were dark tinted
glass, and the back of the business had an aluminum
bay door opening into the business.

App. 71
The afﬁdavit also sets forth speciﬁc facts regarding the alleged offenses. The complainants had agreed
to meet a person named “Jerry” at the speciﬁcallydescribed custom auto shop to conduct business. When
the complainants arrived, several suspects grabbed
them, tied them up, beat them, poured gasoline on
them, and threatened to set them on ﬁre. After stealing
cash and other items from them, the suspects then
forced the complainants into the back of a van at gunpoint and drove away from the auto shop. The complainants jumped out of the van as it was moving, and
the suspects shot them and continued to drive without
stopping.
A witness reported that she observed the complainants lying injured on the side of a road with their
hands tied and mouths duct-taped. They had suffered
multiple gunshot wounds. Another witness had seen
the complainants exiting a van while it was moving
down the road.
One of the complainants directed the afﬁant to
Dreams Auto Customs, which the afﬁant determined
was owned by appellant’s wife. When shown appellant’s photograph, the complainant identiﬁed appellant as the suspect who punched the complainants,
poured gasoline on them, held a lighter near them,
threatening to set them on ﬁre, and ordered the other
suspects to take them away in the van.
Based upon this information, the afﬁant believed
that DNA from the complainants and the suspects,
as well as property belonging to the men and

App. 72
“instrumentalities of the crime such as the white van
. . . , guns . . . , [and] zip ties” used to tie the men, would
be found inside the auto shop. The afﬁant also believed
surveillance equipment “may be found” there.
Here, the afﬁdavit established a sufﬁcient nexus
between criminal activity, the things to be seized, and
the place to be searched. See Bonds, 403 S.W.3d at 87374. From the face of the afﬁdavit, it is a fair inference
that surveillance equipment found in the auto shop, if
any, would have recorded evidence of the criminal activity. See Rodriguez v. State, 232 S.W.3d 55, 62 (Tex.
Crim. App. 2007).
There is fair probability that the offenses occurred
in a building where the windows were blacked-out and
a bay door that opened directly into the premises and
where valuable property (vehicles) belonging to customers, along with other expensive custom auto equipment, presumably was housed. Even the name of the
business, “Dreams Auto Customs,” supports the inference that expensive custom equipment would be there.
From these facts, a magistrate reasonably could have
inferred that a business owner interested in obscuring
the view into his windows and providing secure access
to the building within which such property is housed
also would have a security system in place, including
surveillance equipment, and such surveillance equipment probably recorded evidence of the criminal activity occurring there. See, e.g., Walker v. State, 494 S.W.3d
905, 909 (Tex. App.—Houston [14th Dist.] 2016, pet. ref’d)
(holding magistrate reasonably could have inferred that
evidence probably would be on the defendant’s cell

App. 73
phone when the defendant had been communicating
with the complainant and planning robberies around
the time the complainant was robbed and killed);
Eubanks v. State, 326 S.W.3d 231, 248 (Tex. App.—
Houston [1st Dist.] 2010, pet. ref ’d) (holding magistrate reasonably could have inferred that defendant
had pornographic photographs stored on a computer
when he allegedly made the complainants pose for
nude or partially nude photographs, even though the
complainants did not mention the use of a digital camera or a computer).
Appellant’s only issue concerns whether the afﬁdavit was sufﬁcient to establish probable cause that
the surveillance video or equipment would be located
at the place to be searched. The majority, however, relies on computer/camera and cellphone cases, which
address the second element of article 18.01(c)—
whether “the speciﬁcally described property or items
that are to be searched for or seized constitute evidence
of that offense or evidence that a particular person
committed that offense.” Tex. Code Crim. Proc. art.
18.01(c). The majority acknowledges that those cases
do not involve the third element—whether evidence is
located at the place to be searched. Id. Although the
majority acknowledges that those cases do not concern
the element that is at issue in this case, it nonetheless
ﬁnds those cases persuasive in analyzing whether it
was reasonable for the magistrate to infer that the surveillance system existed.
The majority recites the general proposition that
to support a search warrant for a computer, this court

App. 74
has held that there must be some evidence that a computer was directly involved in the crime. See Ex parte
Jones, 473 S.W.3d 850, 856-57 (Tex. App.—Houston
[14th Dist.] 2015, pet. ref ’d); Ryals v. State, 470 S.W.3d
141, 143, 146 (Tex. App.—Houston [14th Dist.] 2015,
pet. ref ’d); Porath v. State, 148 S.W.3d 402, 409 (Tex.
App.—Houston [14th Dist.] 2004, no pet.). The majority is correct that this court has held that there must
be some evidence that a computer was directly involved in the crime when addressing the second element.
However, the majority misses the mark in this
case. Had appellant challenged whether the afﬁdavit
was sufﬁcient to establish probable cause that the surveillance equipment is evidence that appellant committed the charged offense, then those cases would be
applicable. But that is not the element appellant expressly placed at issue in this appeal. Instead, the majority is attempting to replace one element with
another that has no relevance to the issue presented.
Stated differently, to explain how the afﬁdavit is purportedly not sufﬁcient to establish probable cause that
the surveillance equipment is located at the place to be
searched, the majority seeks to support its position by
arguing that authority from this court requires that
the afﬁdavit be sufﬁcient to speciﬁcally establish probable cause that the surveillance equipment is evidence
that appellant committed the offense.
The majority recognizes that a magistrate may
rely on matters of common knowledge in ﬁnding probable cause as the magistrate may interpret an afﬁdavit

App. 75
in a non-technical and common-sense manner. Surveillance systems have permeated nearly every aspect of
society. It is not necessary to run a Westlaw search for
conﬁrmation of the vast presence of surveillance systems. One need only enter any store, restaurant, parking garage, or any other commercial property and look
over head to note visible surveillance cameras.
The magistrate could have inferred that a custom
auto shop would have costly equipment and expensive
vehicles belonging to the shop’s customers. With valuable property located on its premises, it is a reasonable
inference that the auto shop would take measures necessary to protect its business from theft or vandalism.
Such measures included dark tinted glass in its front
door and windows and a bay door that opened directly
into the premises, and the magistrate could have inferred that the shop would take other actions to secure
the property with a security system, which would include surveillance equipment to record any criminal
activity occurring on the premises.
Deferring to all reasonable inferences the magistrate could have made, I would uphold the ﬁnding of
probable cause, and afﬁrm the judgment of the trial
court.
/s/ Martha Hill Jamison
Justice

App. 76
DISSENTING OPINION
Appellant raises a single issue on appeal—the denial of his motions to suppress video surveillance. The
video surveillance was found on the hard drive of a
computer that was seized from Dreams Auto Customs
Shop, the business wherein the two complainants were
assaulted and from which they were kidnapped. For
the reasons stated herein, I respectfully dissent to the
majority’s decision to reverse appellant’s conviction.
STANDING
To challenge a search and seizure under either the
United States or Texas Constitutions and article 38.23,
a party must ﬁrst establish standing. See Kothe v.
State, 152 S.W.3d 54, 59 (Tex. Crim. App. 2004); Villarreal v. State, 935 S.W.2d 134, 138 (Tex. Crim. App.
1996); Martinez v. State, 236 S.W.3d 361, 367 (Tex.
App.—Fort Worth 2007, pet. dism’d). Standing is a
question of law that we review de novo and may be
raised by this court sua sponte. Kothe, 152 S.W.3d at
59-60; State v. Millard Mall Servs., Inc., 352 S.W.3d 251
(Tex. App.—Houston [14th Dist.] 2011, no pet.).18 It is
the defendant’s burden to provide facts that establish
standing. See Villarreal, 935 S.W.2d at 138; see also
Millard Mall Svcs., 352 S.W.3d at 253. Failure to meet
that burden and to establish standing may result in
18

See also State v. Sepeda, 349 S.W.3d 713 (Tex. App.—Houston [14th Dist.] 2011, no pet.); State v. Simon Prop. Group, Inc.,
357 S.W.3d 687 (Tex. App.—Houston [14th Dist.] 2011, no pet.)
(accord).

App. 77
the denial of the motion to suppress. State v. Klima,
934 S.W.2d 109, 110 (Tex. Crim. App. 1996). That decision will not be disturbed on appeal even in cases in
which the record does not reﬂect that the issue was
ever considered by the parties or the trial court. Id.
The majority holds the State has forfeited the
standing issue “through its assertions, concessions,
and acquiescence in the course of litigation” and cites
State v. Klima, 934 S.W.2d 109, 110 n.1 (Tex. Crim. App.
1996); Wilson v. State, 692 S.W.2d 661, 668 (Tex. Crim.
App. 1984) (op. on reh’g) (citing Steagald v. United
States, 451 U.S. 204, 101 S.Ct. 1642, 1646, 68 L.Ed.2d
38 (1981)), in support. In Wilson, the Texas Court of
Criminal Appeals recognized that Rakas v. Illinois, 439
U.S. 128, 99 S.Ct. 421, 58 L.Ed.2d 387 (1978), “put defendants on notice that the privacy interest in the
premises searched is an element of their Fourth
Amendment claim, which they bear the burden of establishing” and that Sullivan v. State, 564 S.W.2d 698
(Tex. Crim. App. 1978), “put defendants on notice that
the State would be allowed to raise the issue of standing for the ﬁrst time on appeal.” 692 S.W.2d at 669. The
Court then considered whether the record had the necessary facts to determine whether the defendant had
standing. Id. The Court found in that case the evidence
satisﬁed the defendant’s burden of production. Id. at
671. In doing so, the Court answered in the afﬁrmative
that a trial court’s denial of a motion to suppress can
be sustained on the ground that the defendant failed
to meet his burden. Id. (citing Lewis v. State, 664
S.W.2d 345 (Tex. Crim. App. 1984)). Wilson did not

App. 78
reverse the trial court’s denial of the defendant’s motion to suppress on the basis that the State conceded
or acquiesced to standing. Id.
In Klima, the Texas Court of Criminal Appeals rejected the lower court’s holding that the State was procedurally barred from raising standing for the ﬁrst
time on appeal. 934 S.W.2d at 111. The Court reiterated that the defendant “by bringing the motion to suppress, bore the burden of establishing all of the
elements of her Fourth Amendment claim.” Id. (citing
Rawlings v. Kentucky, 448 U.S. 98, 105, 100 S.Ct. 2556,
2561, 65 L.Ed.2d 633, 642 (1980)). “Part of that proof
included establishing her own privacy interest in the
premises searched.” Id. (citing Wilson, 692 S.W.2d at
666-67; Rakas v. Illinois, 439 U.S. at 149-50, 99 S.Ct. at
433, 58 L.Ed.2d at 404-05)). The Court held that raising standing for the ﬁrst time on appeal did not present a new issue and reasoned that from the outset the
defendant bears the burden of proving the extent of his
Fourth Amendment rights. Id. Because standing was
an element of the defendant’s Fourth Amendment
claim, she was on notice that it was her obligation to
allege and prove standing. Id. (citing Wilson, 692
S.W.2d at 669). As in Wilson, the Court in Klima did
not hold the State conceded or acquiesced to standing.
Because neither Wilson nor Klima support the
proposition for which they are cited, I would not conclude the State conceded or acquiesced to standing.
Moreover, the majority’s position is inconsistent with
authority from the Texas Court of Criminal Appeals
and this court that standing may be raised by this

App. 79
court sua sponte. Kothe, 152 S.W.3d at 59-60; Millard
Mall Svcs., Inc., 352 S.W.3d at 251. And this court has
recently done so in Costin v. State, No. 14-16-00470-CR,
2018 WL 1278515, at *1 (Tex. App.—Houston [14th
Dist.] Mar. 13, 2018, no pet.) (mem. op., not designated
for publication); Costin v. State, 550 S.W.3d 217, 218
(Tex. App.—Houston [14th Dist.] 2018, no pet.) (mem.
op., not designated for publication) (Donovan, J., dissenting).
As to the question of whether appellant met his
burden, the majority utilizes only the intrusion-uponproperty-approach. See Williams v. State, 502 S.W.3d
254, 261 (Tex. App.—Houston [14th Dist.] 2016, pet.
ref ’d). In Williams, this court addressed standing under that theory after having already concluded that the
defendant lacked standing to challenge the search under a reasonable-expectation-of-privacy theory. Id. at
260. Likewise, in Castillo v. State, No. 14-16-00296-CR,
2017 WL 4844481, at *4 (Tex. App.—Houston [14th
Dist.] Oct. 26, 2017, no pet.) (mem. op., not designated
for publication), we considered both theories. In this
case, the majority chooses not to address the reasonable-expectation-of-privacy theory.
Under the intrusion-upon-property-approach, the
majority considers whether appellant “had a sufﬁcient
proprietary or possessory interest in the place or object
searched.” Williams, 502 S.W.3d at 261; Castillo, 2017
WL 4844481, at *5. The majority holds “evidence offered by the State demonstrated that appellant had a
sufﬁcient proprietary or possessory interest in Dreams
Auto Customs to have standing to challenge the

App. 80
search.” Williams, 502 S.W.3d at 260; Castillo, 2017 WL
4844481, at *5. The evidence relied upon by the majority is:
1. testimony from Arnold that appellant was
an owner of the business;
2. testimony from Arnold that “they were
Foreman’s computer systems;”
3. and mail in a storage room inside the auto
shop was addressed to appellant.
The majority concludes this evidence establishes
the computer in question was appellant’s personal
property. The majority cites no authority applying the
intrusion-upon-property theory to confer standing for
Fourth Amendment purposes on the business owner
for company equipment on commercial premises. Without more, I would not hold that company equipment is
the business owner’s “own personal ‘effects’ ” such that
a search of it constitutes a trespass upon the business
owner. See Ford v. State, 477 S.W.3d 321, 328 (Tex.
Crim. App. 2015) (recognizing that a Fourth Amendment claim may be based on a trespass theory of
search (one’s own personal “effects” have been trespassed), or a privacy theory of search (one’s own expectation of privacy was breached)). I would conclude that
appellant failed to show his own personal effects were
trespassed and therefore under the intrusion-uponproperty theory failed to meet his burden to establish
standing. See Ford, 477 S.W.3d at 328.
I would further analyze standing under the privacy theory and conclude appellant has not met his

App. 81
burden to show (1) that he had a subjective expectation
of privacy in the place or property searched and (2) that
society would recognize that expectation of privacy as
being objectively reasonable. State v. Betts, 397 S.W.3d
198, 203 (Tex. Crim. App. 2013); Lown v. State, 172
S.W.3d 753, 759 (Tex. App.—Houston [14th Dist.] 2005,
no pet.). Photographs admitted into evidence show the
computer for the audio surveillance system was in an
ofﬁce with two desks. Although there was a lock on the
door, it was not locked and no keys were required for
entry. The testimony of Ofﬁcer Douglas Ertons was
that the computer was not password protected. There
is no evidence that appellant ever used the computer,
much less that he had dominion or control over it, or
the right to exclude others from its use. There is no evidence as to whether appellant primarily occupied and
controlled the ofﬁce in which the computer was located
or had the right to exclude others from it. The computer itself was not password protected. Considering
all of these facts, appellant failed to show that he had
a subjective expectation of privacy in the computer
seized or that any expectation of privacy he had was
one society would recognize as being objectively reasonable. See Granados v. State, 85 S.W.3d 217, 222-23
(Tex. Crim. App. 2002); Villarreal v. State, 935 S.W.2d
134, 138 (Tex. Crim. App. 1996).
Because appellant did not meet his burden to
show that he had standing to complain of the seizure
under either privacy theory, I would conclude the trial
court did not err by denying the motion to suppress.
See Betts, 397 S.W.3d at 203-04 (listing the Granados

App. 82
factors); see also Myrick v. State, 412 S.W.3d 60, 66 (Tex.
App.—Texarkana 2013, no pet.).
HARM
Furthermore, I would conclude the alleged error is
not reversible. The error, if any, in admitting the videotape does not automatically merit reversal. Constitutional errors are reversible unless the appellate court
determines the error did not contribute to the conviction or punishment beyond a reasonable doubt. Tex. R.
App. P. 44.2(a). Non-constitutional errors are reversible if they affected a defendant’s substantial rights.
Tex. R. App. P. 44.2(b).
Assuming, without deciding, appellant is correct
that the alleged error is constitutional, it is subject to
harmless-error analysis. See Rubio v. State, 241 S.W.3d
1, 3 (Tex. Crim. App. 2007). In other words, this Court
will reverse the conviction unless we determine beyond
a reasonable doubt that the error did not contribute to
appellant’s conviction. Id. If there is a reasonable likelihood that the error materially affected the jury’s deliberations, then the error was not harmless beyond a
reasonable doubt. Id. In making this determination,
we should not focus on the propriety of the outcome of
the trial but should instead calculate the probable impact of the error on the jury, in light of all other evidence available. Id. We consider evidence of the
defendant’s guilt as a factor in our analysis but the ultimate question is whether we are able to determine

App. 83
beyond a reasonable doubt that the error complained
of did not contribute to the jury’s verdict. Id.
The majority determines the erroneous admission
of the video is reversible error because it was “the only
strong evidence showing appellant’s involvement in
the offenses.” I disagree.
Merchant testiﬁed that “Junior” introduced him to
his father at a garage. Merchant identiﬁed appellant
in-court as the man Junior identiﬁed as his father.
Merchant and Glekiah had a second meeting with appellant and Junior at the garage. It was on the occasion
of the third meeting with appellant and Junior that the
actions underlying these cases occurred. Merchant met
appellant three times before identifying him in-court
as having been involved in the offenses.
Merchant testiﬁed that appellant told “the guy
that was stepping on [his] head” to pick him up. Appellant had a gun and threatened Merchant with it. Appellant “gave the order” to bring a clothes iron and
said, “Plug it in and burn his side.” The record reflects that in open court Merchant stood up, pulled
up his shirt, and showed a burn mark on his skin. A
clothes iron was found at the garage and was introduced into evidence as State’s Exhibit No. 31. Merchant testiﬁed that appellant told the others to put
them in the van. According to Merchant, everyone in
the auto shop was receiving their instructions from
appellant. Appellant was in the van when Merchant
and Glekiah tried to escape and someone said to
shoot them; Merchant was shot multiple times.

App. 84
During cross-examination, Merchant testiﬁed that
appellant told Merchant that he, appellant, would
bring $100,000.
Glekiah testiﬁed the police showed him a photospread four days after the incident. He selected a
person out of the photospread and signed it. The photospread was admitted into evidence and the jury was
able to compare the photograph of the man that
Glekiah identiﬁed to appellant.
Glekiah identiﬁed appellant in-court as the person
at the garage where he and Merchant were going to
“switch the money.” Appellant used a remote to close
the garage door and said, “guys” and other men came
toward Merchant and Glekiah. Glekiah testiﬁed that
appellant had a gun. Gasoline was poured on Glekiah
and appellant said, “You going to burn.” He had a
lighter and lit it. Glekiah testiﬁed appellant was “the
boss” and he told the others “what to do.” Glekiah
asked to leave but appellant would not let him.
Glekiah testiﬁed that appellant gave the order to get
the iron. Appellant took Glekiah’s driver’s license. Appellant told someone to get the van and to “[t]ake them
to the spot and I will be there.” Appellant said he was
going to kill them. According to Glekiah, appellant was
“in charge.”
This is “strong evidence” of appellant’s involvement in the offenses. Generally, admission of evidence
that was cumulative is harmless beyond a reasonable
doubt. See Estrada v. State, 313 S.W.3d 274, 302 n. 29
(Tex. Crim. App. 2010) (noting that any preserved error

App. 85
with respect to admission of complained-of evidence
was harmless in light of “very similar evidence” admitted without objection); McNac v. State, 215 S.W.3d 420,
424-25 (Tex. Crim. App. 2007) (in harm analysis, concluding that the “unchallenged evidence [was] essentially cumulative” of the challenged evidence); Davis v.
State, 203 S.W.3d 845, 855 (Tex. Crim. App. 2006)
(holding harmless beyond a reasonable doubt admission of “important” evidence that was cumulative);
Dowthitt v. State, 931 S.W.2d 244, 263 (Tex. Crim. App.
1996) (evidence harmless beyond a reasonable doubt
where other physical evidence strongly connected defendant to murders); Jefﬂey v. State, 38 S.W.3d 847,
859-60 (Tex. App.—Houston [14th Dist.] 2001, pet.
ref ’d) (determining that jury did not place a great deal
of weight on potentially inadmissible confession because
appellant had also made an admissible confession).
The testimony of Merchant and Glekiah established
that both complainants had met appellant prior to the
night in question. They both identiﬁed appellant and
gave detailed testimony about his involvement in the
offenses. Thus the video was cumulative of trial testimony establishing appellant’s identity. See Meggs v.
State, 438 S.W.3d 143, 147 (Tex. App.—Houston [14th
Dist.] 2014, pet. ref ’d) (concluding admission of the evidence sought to be suppressed did not materially affect the jury deliberations admission in light of other
evidence establishing the defendant was present at the
murder scene).
I disagree with the majority’s reliance upon the
corroborating effect of the video as it is based upon an

App. 86
assessment of the complainants’ lack of credibility.
Credibility is a matter solely for the jury to decide.
Criff v. State, 438 S.W.3d 134, 138 (Tex. App.—Houston
[14th Dist.] 2014, pet. ref ’d) (citing Cain v. State, 958
S.W.2d 404, 408-09 (Tex. Crim. App. 1997)).
The video does corroborate some of complainant’s
testimony but it was not the only corroborative evidence of what happened:
[W]itnesses driving on the service road of
Highway 290 observed complainants Moses
Glekiah and Richard Merchant tumble from
the rear of a van onto the road. Complainants
were bound with zip ties and their mouths
were taped shut with duct tape. Witnesses observed that complainants had been shot and
were bleeding.
Because those same complainants gave eyewitness accounts at trial as to appellant’s involvement, I
would conclude beyond a reasonable doubt that the error, if any, in admitting the video tape did not contribute to appellant’s conviction. Id.
CONCLUSION
For these reasons, I respectfully dissent.
/s/ John Donovan
Justice

App. 87
Court of Appeals of Texas, Fourteenth District, Houston
August 10, 2017, Plurality, Concurring, and
Dissenting Opinions Filed
NO. 14-15-01005-CR, NO. 14-15-01006-CR
2017 WL 3445356
NATHAN RAY FOREMAN, Appellant
v.
THE STATE OF TEXAS, Appellee
Notice:

PUBLISH—TEX. R. APP. P. 47.2(b).

Counsel: For APPELLANT: Stanley G. Schneider,
HOUSTON, TX.
For STATE: Clinton Morgan, HOUSTON, TX.
Judges: Panel consists of Justices Christopher,
Jamison, and Donovan (Christopher, dissenting) (Donovan, concurring).
Opinion by:

Martha Hill Jamison

Opinion
PLURALITY OPINION
In one issue, appellant Nathan Ray Foreman challenges the denial of his motions to suppress surveillance video evidence found on a computer hard drive.1
1

Appellant ﬁled a motion to suppress evidence obtained from
three hard drives seized from his business. Before trial, a visiting
judge granted appellant’s pretrial motion to suppress evidence
found on two of the hard drives because they were not part of the
surveillance system. Appellant then ﬁled a motion for rehearing
seeking again to suppress the evidence on the third hard drive,

App. 88
A jury found appellant guilty of aggravated robbery
and aggravated kidnapping, and the trial court assessed 50 year sentences to run concurrently.
The offenses occurred in part in a custom auto
shop. A video surveillance system captured a portion of
the offenses on video. At trial, the trial judge admitted
the surveillance video, which was obtained from a computer tower seized from the shop. Appellant argues
that the police ofﬁcer’s afﬁdavit in support of the issuance of the search warrant “failed to set forth facts sufﬁcient to establish probable cause that surveillance
video or surveillance equipment would be located at
the place to be searched” in violation of the Fourth
Amendment of the United States Constitution, article
I, section 9 of the Texas Constitution, and chapter 18
of the Texas Code of Criminal Procedure.
The cornerstone of the Fourth Amendment and article I, section 9 is that a magistrate shall not issue a
search warrant without ﬁrst ﬁnding “probable cause”
that particular evidence of a particular crime will be
found in a particular location. Rodriguez v. State, 232
S.W.3d 55, 60 & n.15 (Tex. Crim. App. 2007) (citing U.S.
Const. amend. IV and Tex. Const. art. I, § 9); see also
Bonds v. State, 403 S.W.3d 867, 872-73 (Tex. Crim. App.
2013). The Code of Criminal Procedure allows the issuance of a search warrant to seize property or items that
constitute evidence of an offense. State v. Dugas, 296
which was heard and denied by the sitting trial judge. Appellant
reurged the motion during trial before a third trial judge. She
noted that the matter already had been heard by two judges and
admitted the surveillance video over appellant’s objections.

App. 89
S.W.3d 112, 115-16 (Tex. App.—Houston [14th Dist.]
2009, pet. ref ’d) (citing Tex. Code Crim. Proc. art.
18.02(a)(10)). Before a search warrant may issue, a
sworn afﬁdavit must be ﬁled setting forth sufﬁcient
facts to show probable cause that (1) a speciﬁc offense
has been committed; (2) the speciﬁcally described property or items to be searched for or seized constitute evidence of that offense or evidence that a particular
person committed that offense; and (3) the property or
items constituting such evidence are located at or on
the particular person, place, or thing to be searched.
Id. (citing Tex. Code Crim. Proc. art. 18.01(c)).
Probable cause exists when, under the totality of
the circumstances, there is a fair probability or substantial chance that contraband or evidence of a crime
will be found at a speciﬁed location. Bonds, 403 S.W.3d
at 873; Rodriguez, 232 S.W.3d at 60. This standard is
“ﬂexible and nondemanding.” Bonds, 403 S.W.3d at
873; Rodriguez, 232 S.W.3d at 60. Because of the ﬂexibility in this standard, neither federal nor Texas law
deﬁnes precisely what degree of probability sufﬁces to
establish probable cause, but that probability cannot
be based on mere conclusory statements of an afﬁant’s
belief. Rodriguez, 232 S.W.3d at 61.
An afﬁant must present an afﬁdavit that allows
the magistrate to determine probable cause independently: the magistrate’s actions cannot be a mere
ratiﬁcation of the bare conclusions of others. Id. However, when reviewing a magistrate’s decision to issue a
warrant, trial and appellate courts apply a highly deferential standard in keeping with the constitutional

App. 90
preference for a warrant.2 Id. Thus, when reviewing an
issuing magistrate’s determination, we interpret the
afﬁdavit in a commonsensical and realistic manner,
recognizing that the magistrate may draw reasonable
inferences. Id. We defer to all reasonable inferences
that the magistrate could have made. Id.
The issue is not whether there are other facts that
could have, or even should have, been included in the
afﬁdavit: we focus on the combined logical force of facts
that are in the afﬁdavit, not those that are omitted
from the afﬁdavit. Rodriguez, 232 S.W.3d at 62. Concomitantly, our review is restricted solely to the four
corners of the afﬁdavit. Bonds, 403 S.W.3d at 873;
Walker v. State, 494 S.W.3d 905, 907 (Tex. App.—Houston [14th Dist.] 2016, pet. ref ’d). We are not to invalidate a warrant by interpreting the afﬁdavit in a hypertechnical rather than a commonsense manner. Bonds,
403 S.W.3d at 873; Walker, 494 S.W.3d at 907.
With these general principles in mind, we turn to
the afﬁdavit in this case. Applying a commonsense
reading, we conclude that the afﬁdavit contained sufﬁcient facts from which the trial court could ﬁnd probable cause based on a fair probability that surveillance

2

We typically review a trial judge’s motion to suppress ruling under a bifurcated standard, but when reviewing a magistrate’s decision to issue a warrant, both appellate courts and trial
courts instead apply this standard of review. Walker v. State, 494
S.W.3d 905, 907 (Tex. App.—Houston [14th Dist.] 2016, pet.
ref ’d).

App. 91
equipment would be found at the auto shop containing
evidence of the offenses.
The afﬁant stated that he “ha[d] reason to believe
and [did] believe” that evidence of the offenses would
be found at the auto shop, including, among other
things, audio/video surveillance equipment.3 The afﬁdavit described a number of facts about the auto shop.
The windows and front door of the business were dark
tinted glass, and the back of the business had an aluminum bay door opening into the business. The afﬁdavit also describes a number of facts regarding the
specific offenses. Two men had agreed to meet someone named “Jerry” at the speciﬁcally-described custom
auto shop, Dreams Auto Customs, to conduct business.
When the two men arrived, several suspects grabbed
them, tied them up, beat them, poured gasoline on
them, and threatened to set them on ﬁre. The suspects
stole cash and other items from the men. The suspects
then forced the men into the back of a van at gunpoint,
only then leaving the auto shop. The men jumped out
of the moving van because they believed they were going to be killed. As the men jumped, they were shot by
the suspects.

3

Appellant argues that this statement, standing alone, is
conclusory and does not support an inference that the auto shop
would have surveillance equipment. We, however, review the
afﬁdavit in its entirety, deferring to all reasonable inferences,
to determine whether probable cause existed. See Bonds, 403
S.W.3d at 873 (noting probable cause is reviewed “under the totality of the circumstances”); see also Rodriguez, 232 S.W.3d at 60
(same).

App. 92
A witness reported she observed the men lying injured on the side of a road with their hands tied and
mouths duct-taped. They had suffered multiple gunshot wounds. Another witness had seen the men exiting a van while it was moving down the road.
One of the injured men directed the afﬁant to the
auto shop, which he determined was owned by appellant’s wife. The afﬁant showed appellant’s photograph
to the man, who identiﬁed appellant as a suspect who
punched the men, ordered other suspects around,
poured gasoline on the men, and told other suspects to
take the men away in the van.
Based upon this information, the afﬁant believed
that DNA from the men and the suspects, as well as
property belonging to the men and “instrumentalities
of the crime such as the white van . . . , guns . . . , [and]
zip ties” used to tie the men, would be found inside the
auto shop. The afﬁant also believed surveillance equipment “may be found” there. The afﬁdavit established a
sufﬁcient nexus between criminal activity, the things
to be seized, and the place to be searched. Bonds, 403
S.W.3d at 873. From the face of the afﬁdavit, it is a reasonable inference that surveillance equipment found
in the auto shop, if any, would have recorded evidence
of the criminal activity. See Rodriguez, 232 S.W.3d at
62. However, appellant argues that it is not a reasonable inference that surveillance video or surveillance
equipment would be inside the shop.4 The State argues,
4

Appellant complains that the afﬁant does not mention seeing cameras at the shop. The State counters that such speciﬁcity

App. 93
to the contrary, that there is a reasonable probability
that “more or less every business” would have surveillance equipment and thus the magistrate fairly could
infer that surveillance equipment would be located on
the premises.
We do not ask whether or not surveillance equipment was actually seen by the afﬁant. The proper inquiry is whether there are sufﬁcient facts, coupled with
inferences from those facts, to establish a fair probability or substantial chance that surveillance equipment
containing evidence of the offenses would be found inside the auto shop. See Bonds, 403 S.W.3d at 873; Rodriguez, 232 S.W.3d at 62. We conclude that the facts
in the affidavit and reasonable inferences drawn
therefrom support a finding of a fair probability that
surveillance equipment containing evidence of the offenses would be inside the auto shop.
A fair probability rests in the allegation that the
offenses occurred in a building where the windows
were blacked-out and a bay door opened directly into
the premises and where valuable property (vehicles)
belonging to customers, along with other expensive
custom auto equipment, presumably was housed. Even
the name of the business, “Dreams Auto Customs,”
supports the inference that expensive custom equipment would be there. From these facts, a magistrate
reasonably could have inferred that a business owner
interested in obscuring the view into his windows and
is not required and notes that the afﬁdavit does not mention
whether anyone left DNA or other items at the shop.

App. 94
providing secure access to the building within which
such property is housed also would have a security system in place, including surveillance equipment, and
such surveillance equipment probably recorded evidence of the criminal activity occurring there.5 See, e.g.,
Walker, 494 S.W.3d at 909 (holding magistrate reasonably could have inferred that evidence probably would
be on the defendant’s cell phone when the defendant
had been communicating with the complainant and
planning robberies around the time the complainant
was robbed and killed); Eubanks v. State, 326 S.W.3d
231, 248 (Tex. App.—Houston [1st Dist.] 2010, pet.
ref ’d) (holding magistrate reasonably could have inferred that defendant had pornographic photographs
stored on a computer when he allegedly made the complainants pose for nude or partially nude photographs,
even though the complainants did not mention the use
of a digital camera or a computer).
The dissent agrees that the only element of article
18.02(c) at issue here is whether the afﬁdavit sets forth
sufﬁcient facts to establish probable cause that the
property is located at the place to be searched. See Tex.
Code Crim. Proc. art. 18.01(c)(3). The dissent says that
“[t]he afﬁdavit did not mention any facts to support the
conclusion that a video surveillance system existed at
the body shop.” Dissent at 2. This is simply incorrect.
The afﬁdavit includes multiple facts supporting that
5

Appellant further argued at trial that the State failed to
secure a second warrant before searching the contents of the surveillance tapes. Appellant does not make that argument on appeal.

App. 95
conclusion. Supra at 4-6. The dissent fails to credit all
of the facts in the afﬁdavit and cherry-picks only the
fact that the offense occurred in a business to conclude
that our holding would be applicable to any business.
But our holding is not based solely on that one fact: it
is based on all the relevant speciﬁc facts in the afﬁdavit discussed above. We focus on the combined logical
force of facts that are in the afﬁdavit to determine
whether the magistrate’s inference was reasonable.
See Rodriguez, 232 S.W.3d at 62.
The “computer/camera” and cellphone cases on
which the dissent relies are distinguishable because
they all address the second element of article 18.02(c),
whether “the speciﬁcally described property or items
that are to be searched for or seized constitute evidence
of that offense or evidence that a particular person
committed that offense,” not the third element involving whether evidence is located at the place to be
searched: only the latter is at issue here.6 See Tex. Code
Crim. Proc. art. 18.01(c)(2).
Considering the facts contained in the four corners
of the afﬁdavit and the reasonable inferences therefrom under the totality of the circumstances, we conclude that the facts submitted to the magistrate
demonstrated a fair probability that surveillance
equipment revealing evidence of the offenses would be
6

Neither appellant nor the dissent contests that the facts in
this afﬁdavit establish probable cause of the second element of
article 18.02(c): the property constitutes evidence of a crime,
which is a signiﬁcant factor in this case. See Tex. Code Crim. Proc.
art. 18.01(c)(2).

App. 96
inside the auto shop when the warrant was issued. See
Eubanks, 326 S.W.3d at 249. Accordingly, the trial
judges did not err in denying appellant’s motions to
suppress. We overrule appellant’s sole issue on appeal.
We afﬁrm the judgment of the trial court.
/s/ Martha Hill Jamison
Justice

Concur
CONCURRING OPINION
Appellant raises a single issue on appeal—the denial of his motions to suppress video surveillance. The
video surveillance was found on the hard drive of a
computer that was seized from Dreams Auto Customs
Shop, the business wherein the two complainants were
assaulted and from which they were kidnapped. Because I would afﬁrm the trial court’s judgment on the
basis that appellant failed to meet his burden to establish standing to challenge the seizure, I concur.
In order to challenge a search and seizure under
either the United States or Texas Constitutions and article 38.23, a party must ﬁrst establish standing. See
Kothe v. State, 152 S.W.3d 54, 59 (Tex. Crim. App.
2004); Villarreal v. State, 935 S.W.2d 134, 138 (Tex.
Crim. App. 1996); Martinez v. State, 236 S.W.3d 361,
367 (Tex. App.—Fort Worth 2007, pet. dism’d). Standing is a question of law that we review de novo and may
be raised by this court sua sponte. Kothe, 152 S.W.3d at

App. 97
59-60; State v. Millard Mall Svcs., Inc., 352 S.W.3d 251
(Tex. App.—Houston [14th Dist.] 2011, no pet.).1 It is
the defendant’s burden to provide facts that establish
standing. See Villarreal, 935 S.W.2d at 138; see also
Millard Mall Svcs., 352 S.W.3d at 253. Failure to meet
that burden and to establish standing may result in
the denial of the motion to suppress. State v. Klima,
934 S.W.2d 109, 110 (Tex. Crim. App. 1996). That decision will not be disturbed on appeal even in cases in
which the record does not reﬂect that the issue was
ever considered by the parties or the trial court. Id.
In determining whether appellant has established
standing, we consider both the expectation of privacy
approach and the property-based approach. See State
v. Bell, 366 S.W.3d 712, 713 (Tex. Crim. App. 2012) (citing United States v. Jones, 565 U.S. 400, 132 S.Ct. 945,
181 L.Ed.2d 911 (2012)).2 “A Fourth Amendment claim
may be based on a trespass theory of search (one’s own
personal “effects” have been trespassed), or a privacy
theory of search (one’s own expectation of privacy was
breached).” Ford v. State, 477 S.W.3d 321, 328 (Tex.
Crim. App. 2015).

1

See also State v. Sepeda, 349 S.W.3d 713 (Tex. App.—Houston [14th Dist.] 2011, no pet.); State v. Simon Prop. Group, Inc.,
357 S.W.3d 687 (Tex. App.—Houston [14th Dist.] 2011, no pet.)
(same). Thus the dissent’s point that the State did not challenge
standing in the trial court is of no moment.
2
On remand, the appeals brought by Mark Steven Bell were
dismissed in accordance with the parties’ agreement. State v. Bell,
NO. 14-10-00771-CR, 2013 WL 328952, at *1 (Tex. App.—Houston [14th Dist.] Jan. 29, 2013, no pet.).

App. 98
To establish standing under the latter privacy theory, the defendant must show (1) that he had a subjective expectation of privacy in the place or property
searched and (2) that society would recognize that expectation of privacy as being objectively reasonable.
State v. Betts, 397 S.W.3d 198, 203 (Tex. Crim. App.
2013); Lown v. State, 172 S.W.3d 753, 759 (Tex. App.—
Houston [14th Dist.] 2005, no pet.). In considering the
latter, we examine the totality of the circumstances
surrounding the search, including “(1) whether the accused had a property or possessory interest in the
place invaded; (2) whether he was legitimately in the
place invaded; (3) whether he had complete dominion
or control and the right to exclude others; (4) whether,
before the intrusion, he took normal precautions customarily taken by those seeking privacy; (5) whether
he put the place to some private use; and (6) whether
his claim of privacy is consistent with historical notions of privacy.” Id. (citing Granados v. State, 85
S.W.3d 217, 223 (Tex. Crim. App. 2002); Villarreal, 935
S.W.2d at 138); Lown 172 S.W.3d at 759. This is a nonexhaustive list and no one factor is dispositive. Betts,
397 S.W.3d at 203-04; Lown 172 S.W.3d at 759. An expectation of privacy in commercial premises is less
than a similar expectation in a home. See New York v.
Burger, 482 U.S. 691, 700, 107 S.Ct. 2636, 2642, 96
L.Ed.2d 601 (1987).
There is scant evidence in the record pertinent to
the standing issue. Ofﬁcer Arnold averred that he “researched the location and found the owner to be Charese Foreman . . . married to Nathan Ray Foreman.”

App. 99
The record includes a copy of Nathan and Charese’s
marriage license. It also includes a copy of a “WITHDRAWAL NOTICE OF ASSUMED NAME” on which
Charese Foreman is listed as the sole owner. The motion to suppress refers to the shop as “his business” and
similar references were made by counsel during trial.3
Photographs admitted into evidence show the computer for the audio surveillance system was in an ofﬁce
with two desks. Although there was a lock on the door,
it was unlocked and no keys were required for entry.
The testimony of Ofﬁcer Douglas Ertons was that the
computer was not password protected. Considering
these facts, there was no evidence appellant had a subjective expectation of privacy in the computer seized.
See Villarreal, 935 S.W.2d at 138.
Next, appellant did not show that any expectation
of privacy he had was one society would recognize as
being objectively reasonable. See Granados, 85 S.W.3d
at 222-23; Villarreal, 935 S.W.2d at 138. The record
does not reﬂect the shop was community property
but even assuming appellant’s status as the owner’s
spouse gave him a possessory interest, the totality
of the circumstances do not establish his standing
to challenge the seizure. There is no evidence that
3

The dissent overstates the importance I place upon this
fact. Were the business in appellant’s name, it would support his
claim to an expectation of privacy on the commercial property—
but the facts are otherwise. The case cited by the dissent, Parker
v. State, 182 S.W.3d 923 (Tex. Crim. App. 2006), is clearly distinguishable because the record reﬂected Parker had permission to
drive the car, and was, in fact, driving the car when it was stopped
and searched. There is no analogous evidence in this case.

App. 100
appellant ever used the computer, much less that he
had dominion or control over it, or the right to exclude
others from its use. There is no evidence as to whether
appellant primarily occupied and controlled the ofﬁce
in which the computer was located or had the right to
exclude others from it. The computer itself was not
password protected. Thus, under the property-based
approach, there was also no evidence that appellant’s
own personal effects were trespassed. See Ford, 477
S.W.3d at 328. See also Williams v. State, 502 S.W.3d
254, 258-61 (Tex. App.—Houston [14th Dist.] 2016, pet.
ref ’d) (holding defendant lacked standing to challenge
the search of the home under both theories of privacy).
Because appellant did not meet his burden to
show that he had standing to complain of the seizure
under either privacy theory, I would ﬁnd the trial court
did not err by denying the motion to suppress. See
Betts, 397 S.W.3d at 203-04 (listing the Granados factors); see also Myrick v. State, 412 S.W.3d 60 (Tex.
App.—Texarkana 2013, no pet.). I therefore respectfully concur in this court’s judgment.
/s/ John Donovan
Justice

Dissent
DISSENTING OPINION
In what appears to be a case of ﬁrst impression,
we are asked to decide whether a magistrate can infer

App. 101
that a video surveillance system is present in the interior of an auto body shop and would have recorded any
crime that took place inside the shop without any facts
indicating as such in the afﬁdavit in support of a
search warrant. The opinion by Justice Jamison concludes that a magistrate could have inferred that valuable property (vehicles) along with other “expensive
custom auto equipment” is in the building and that a
business owner could have had a security system in
place, including video surveillance equipment. If this
holding stands, a magistrate could make those same
inferences for any business. And in this day and age,
where a security system is cheaply available for personal use, a magistrate could make those same inferences for any home too. I think the inference in this
case goes too far and is contrary to our cases requiring
speciﬁc facts before a search warrant is issued.
Standing
Before reaching Justice Jamison’s plurality opinion on the sufﬁciency of the afﬁdavit, I brieﬂy address
Justice Donovan’s concurring opinion on standing,
with which I respectfully disagree.
A defendant has standing to contest a search if he
has a legitimate expectation of privacy in the place invaded. See Villarreal v. State, 935 S.W.2d 134, 138 (Tex.
Crim. App. 1996). To prove that he had a legitimate expectation of privacy, the defendant must show (1) that
by his conduct, he exhibited an actual subjective expectation of privacy; and (2) that circumstances existed

App. 102
under which society was prepared to recognize his subjective expectation as objectively reasonable. Id.
The State did not challenge appellant’s standing
in the trial court. Appellant asserted in his motion to
suppress that the body shop was his, and at the hearing on the motion, the State even referred to the seized
computer as “his computer.” The trial court also
granted appellant’s motion in part, which suggests
that the trial court believed that there were facts establishing appellant’s standing.
Justice Donovan appears to conclude that appellant lacked standing because there is evidence that appellant’s wife was the record owner of the body shop
where he conducted his business. Even if true, this evidence is not dispositive. A person can have standing to
contest a search even if record title in the place
searched is in the name of a third party. Cf. Parker v.
State, 182 S.W.3d 923 (Tex. Crim. App. 2006) (boyfriend
had standing to contest the search of a rental car that
he borrowed from his girlfriend, even though the girlfriend was the only authorized driver under the rental
agreement).
I would conclude that appellant established that
he at least had a possessory interest in the body shop,
and that society would be prepared to recognize as reasonable his expectation of privacy in the body shop. See
Villarreal, 935 S.W.2d at 138 (holding that the accused
may have standing whether he had a property or possessory interest in the place invaded).

App. 103
General Law
Article 18.02 of the Code of Criminal Procedure
enumerates the types of items that be searched for and
seized pursuant to a search warrant. A video surveillance system falls under the general scope of Article
18.02(a)(10): “property or items . . . constituting evidence of an offense or constituting evidence tending to
show that a particular person committed an offense.”
See Tex. Code Crim. Proc. art. 18.02(a)(10).
To obtain a search warrant under Article
18.02(a)(10), there must be a sworn afﬁdavit setting
forth sufﬁcient facts to establish probable cause that
(1) a speciﬁc offense has been committed, (2) the speciﬁcally described property or items that are to be
search for or seized constitute evidence of that offense
or evidence that a particular person committed that offense, and (3) the property or items constituting evidence to be searched for or seized are located at or on
the particular person, place, or thing to be searched.
Id. art. 18.01(c).
This case involves the third requirement—were
there facts in the afﬁdavit from which a magistrate
could reasonably infer that a video surveillance system
was located at the body shop? The answer to that question is clearly no. The afﬁdavit did not mention any
facts to support the conclusion that a video surveillance system existed at the body shop. For example,
there was no mention that surveillance cameras were
visible on the exterior of the body shop, nor was there
a mention that cameras had been spotted inside the

App. 104
building. Lacking that information, Justice Jamison
still infers that such a system existed.
Reasonable Inferences
Magistrates are permitted to draw reasonable inferences from the facts and circumstances alleged in
the afﬁdavit. The following are a few of the more common themes that have developed in our case law:
• Instrumentalities of the crime. In Ramos v.
State, 934 S.W.2d 358, 363 (Tex. Crim. App. 1996),
the court explained that in a murder case, a magistrate could reasonably infer that a weapon could
be found at the residence where the murder took
place. (Of course, a surveillance video is not an instrumentality of the crime.)
• Possession of contraband. In Rodriguez v.
State, 232 S.W.3d 55, 62-63 (Tex. Crim. App. 2007),
the court held that a magistrate could reasonably
infer that a garage contained drugs based on information that a man went to the garage, walked
out with a package, threw the package in his car,
and was later stopped with a package containing
drugs. See also Moreno v. State, 415 S.W.3d 284,
288 (Tex. Crim. App. 2013) (involving similar inference based on information from a conﬁdential
informant).
• Skills and training. In Davis v. State, 202
S.W.3d 149, 155-57 (Tex. Crim. App. 2006), the
court held that a magistrate could reasonably
infer that an ofﬁcer was qualiﬁed to recognize
the odor of methamphetamine, even though the

App. 105
afﬁdavit was silent as to the ofﬁcer’s skills and
training.
• Time. In State v. Jordan, 342 S.W.3d 565, 571
(Tex. Crim. App. 2011), a case involving a warrant
to seize blood in connection with a suspected DWI,
the ofﬁcer did not indicate the precise time of his
observations, but the court held that a magistrate
could reasonably infer that the ofﬁcer’s observations occurred on the same date that the offense
was alleged to have occurred, and that this information was not stale because the afﬁdavit was
presented shortly after midnight. See also Crider
v. State, 352 S.W.3d 704, 710-11 (Tex. Crim. App.
2011) (reaching a different conclusion where the
window of time was much greater); State v.
McLain, 337 S.W.3d 268, 273 (Tex. Crim. App.
2011) (holding that the trial and appellate courts
should have deferred to the magistrate’s implied
ﬁnding that an ambiguous phrase in an afﬁdavit
referred to the time that an informant made his
observations).
• Credibility of an anonymous informant.
In Flores v. State, 319 S.W.3d 697, 703 (Tex. Crim.
App. 2010), the court held that a magistrate could
reasonably conclude that an anonymous informant had some familiarity with the defendant based
on corroborating evidence and the “doctrine of
chances.” See also State v. Duarte, 389 S.W.3d 349,
359-60 (Tex. Crim. App. 2012) (tip from a ﬁrst-time
conﬁdential informant was not reliable where
there was no detail or corroboration).
• Personal knowledge. In Jones v. State, 568
S.W.2d 847, 855 (Tex. Crim. App. 1978), the court

App. 106
held that a magistrate could reasonably infer that
information conveyed in the passive voice was information within the personal knowledge of the afﬁant.
None of the cases cited above would support the
inferential leap made by Justice Jamison. Nor do the
cases that are cited in her opinion.
To support my opinion, I look to two different types
of cases: computer/camera cases and cellphone cases.
Before we allow a search of either of those electronic
devices, we have required speciﬁc facts to support an
inference that those devices probably exist and that
the evidence of the crime will be found on those devices.
Computer/camera cases
Generally, to support a search warrant for a computer, there must be some evidence that a computer
was directly involved in the crime. See Ryals v. State,
470 S.W.3d 141, 143, 146 (Tex. App.—Houston [14th
Dist.] 2015, pet. ref ’d) (defendant told an undercover
ofﬁcer that he would use a computer to make fake IDs);
Ex parte Jones, 473 S.W.3d 850, 856 (Tex. App.—Houston [14th Dist.] 2015, pet. ref ’d) (defendant subscribed to a commercial child pornography website);
Porath v. State, 148 S.W.3d 402, 409 (Tex. App.—Houston [14th Dist.] 2004, no pet.) (defendant met the complainant in an internet chat room).
When there is no evidence that a computer was directly involved in the crime, more is generally needed

App. 107
to justify a computer search. An opinion authored by
Justice Jamison illustrates my point. In Checo v. State,
402 S.W.3d 440 (Tex. App.—Houston [14th Dist.] 2013,
pet. ref ’d), the defendant kidnapped a little girl and
took her to a house, where he showed her adult pornography on a desktop computer. The defendant then took
the complainant to another room, where he attempted
to assault her. The complainant observed a laptop in
that room that was set up to take pictures and videos. The affiant obtained a warrant to search for
child pornography (which the complainant had not
been shown), and the defendant moved to suppress the
results of the search, arguing that there was no information in the ofﬁcer’s afﬁdavits that the defendant
photographed or videotaped the complainant, or other
information independently linking him to child pornography. We rejected that argument, noting afﬁdavit
testimony from the ofﬁcer that those who engage children in a sexually explicit manner often collect child
pornography on their computers. Given this level of
factual speciﬁcity, we held that the search warrant was
valid.
Another illustrative case is Aguirre v. State, 490
S.W.3d 102 (Tex. App.—Houston [14th Dist.] 2016, no
pet.), which was authored by Justice Donovan, and
which I joined. There, a child complainant described
how the defendant would photograph her while they
had sex. The complainant’s mother stated that the defendant had a laptop that he did not allow anyone to
use. The police ofﬁcer afﬁant testiﬁed that based on her
training and expertise, child molesters will often use

App. 108
their computers to store and exchange sexually explicit
images of children. We held that the afﬁdavit was sufﬁcient to support a search of the defendant’s computer.
But in this case, the afﬁant provided no facts that
a computer or camera was involved in the crime, directly or indirectly.1
Cellphone cases
Similarly, an afﬁdavit offered in support of a warrant to search a cellphone must usually include facts
that a cellphone was used during the crime or shortly
before or after. In Walker v. State, 494 S.W.3d 905 (Tex.
App.—Houston [14th Dist.] 2016, pet. ref ’d), we concluded that there was probable cause to search a defendant’s cellphone when the afﬁdavit stated that the
defendant admitted to shooting the complainant, and
there was other information that the defendant and
the complainant knew each other, communicated by
cellphone, and exchanged messages and phone calls
around the time of the shooting.
In Aguirre, mentioned earlier, we also held that
the affidavit was sufficient to search all of the
1

Justice Jamison cites Eubanks v. State, 326 S.W.3d 231
(Tex. App.—Houston [1st Dist.] 2010, pet. ref ’d), a child sex assault case where the First Court of Appeals held that a magistrate
could infer that a computer was used in a crime based on the child
complainant’s testimony that she was photographed. I would note
that our court has never gone that far in making such an inference, nor have we ever followed Eubanks for that proposition.
Cases from our court have certainly had more evidentiary support.

App. 109
defendant’s cellphones when the complainant said that
a particular cellphone was used to photograph her and
that the defendant had used instant messenger to send
a photograph of his penis. Based on the afﬁant’s opinion testimony that pedophiles share pornography
through electronic media, we concluded that all of the
cellphones could be searched.
In Humaran v. State, 478 S.W.3d 887 (Tex. App.—
Houston [14th Dist.] 2015, pet. ref ’d), the defendant
made a “disturbance” call to police and there was evidence that she and a codefendant had murdered a person and set the body on ﬁre. We concluded that the
facts were sufﬁcient to support a search of her cellphone.
The conclusion from these cases
Courts allow magistrates to make reasonable inferences that often center on certain types of assumptions, but none of those assumptions has been the
existence of a video surveillance system. Precedent
from our own court with respect to computers and cellphones requires speciﬁc evidence that a computer or
cellphone was used in the crime, or that the facts of the
type of crime itself lead to the conclusion that a computer or cellphone was used. I see no reason to treat a
case involving video surveillance systems any differently.
Justice Jamison’s stacking of inferences could lead
to all computers and cellphones being searchable for
any type of video or picture that could have recorded a

App. 110
crime, even though the afﬁant provided no facts suggesting that a computer or cellphone even existed. If a
crime took place at your home, is it reasonable to assume that you have a security system that links to
either your computer or cellphone, subjecting them
both to a search?
I would conclude that the afﬁant provided insufﬁcient facts to support a ﬁnding that a video surveillance system was located at the body shop, and that
the trial court erred by denying the motion to suppress.
Harm
This error is constitutional, and therefore, this
court must reverse the conviction unless we determine
“beyond a reasonable doubt that the error did not contribute to the conviction.” See Tex. R. App. P. 44.2(a);
Taunton v. State, 465 S.W.3d 816, 823-24 (Tex. App.—
Texarkana 2015, pet. ref ’d). This standard for determining harmful error “should ultimately serve to vindicate the integrity of the fact-ﬁnding process rather
than simply looking to the justiﬁability of the factﬁnder’s result.” See Snowden v. State, 353 S.W.3d 815,
819 (Tex. Crim. App. 2011). Accordingly, we must focus
not on whether the jury verdict was supported by legally sufﬁcient evidence, but rather, on whether “the
error adversely affected the integrity of the process
leading to the conviction,” Langham v. State, 305
S.W.3d 568, 582 (Tex. Crim. App. 2010), or on whether
“the error at issue might possibly have prejudiced the
jurors’ decision-making.” Harris v. State, 790 S.W.2d

App. 111
568, 586 (Tex. Crim. App. 1989), overruled on other
grounds by Snowden, 353 S.W.3d at 821-22.
An error is not harmless “simply because the reviewing court is conﬁdent that the result the jury
reached was objectively correct.” See Snowden, 353
S.W.3d at 819. Error is not harmless “if there is a reasonable likelihood that it materially affected the jury’s
deliberations.” See Neal v. State, 256 S.W.3d 264, 284
(Tex. Crim. App. 2008). Nor is error harmless if it “disrupted the jury’s orderly evaluation of the evidence.”
See Walker v. State, 180 S.W.3d 829, 835 (Tex. App.—
Houston [14th Dist.] 2005, no pet.) (citing Harris, 790
S.W.2d at 588).
To determine whether constitutional error was
harmless, we must “calculate, as nearly as possible, the
probable impact of the error on the jury in light of the
other evidence.” See Neal, 256 S.W.3d at 284. Accordingly, the presence of “overwhelming evidence of guilt
is a factor to be considered.” See Motilla v. State, 78
S.W.3d 352, 357 (Tex. Crim. App. 2002). Other factors
to consider may include the nature of the error,
whether it was emphasized by the State, the probable
implications of the error, and the weight the jury would
likely have assigned to it in the course of its deliberations. See Snowden, 353 S.W.3d at 822. These are not
exclusive considerations or even necessary considerations in every case. Id. “At bottom, an analysis for
whether a particular constitutional error is harmless
should take into account any and every circumstance
apparent in the record that logically informs an appellate determination whether ‘beyond a reasonable

App. 112
doubt [that particular] error did not contribute to the
conviction or punishment.’” Id. We examine the entire
record “in a neutral, impartial and even-handed manner and do not make our examination in the light most
favorable to the prosecution.” See Harris, 790 S.W.2d
at 586; Daniels v. State, 25 S.W.3d 893, 899 (Tex. App.—
Houston [14th Dist.] 2000, no pet.).
Turning now to the evidence, I recognize that the
complainants are not the most sympathetic victims.
They both had criminal convictions and were allegedly
trying to take advantage of appellant in a scam. I also
recognize that appellant claimed that he was not the
shooter or a party to any kidnapping, but the video was
particularly signiﬁcant in showing that appellant was
involved.
The ﬁrst seven witnesses testiﬁed to the scene out
on the highway where the two complainants jumped
out of the van while tied up. The video had no bearing
on this testimony at all. Appellant was not identiﬁed
as a driver or passenger in the van.
The next witness was Ofﬁcer Arnold who retrieved
the video from the body shop. Ofﬁcer Arnold testiﬁed
that the video corroborated the complainants’ story
about what had happened to them before the scene on
the highway.
The next two witnesses explained how the video
had been retrieved from the computer and saved to a
ﬁle.

App. 113
Ofﬁcer Hufstedler testiﬁed next about the search
of the body shop. When he was on the stand, the State
played parts of the video and elicited testimony about
what the video showed. Ofﬁcer Hufstedler testiﬁed
that the video showed that one of the men at the body
shop, Darren Franklin, had a gun. He also testiﬁed
that the video showed both of the complainants at the
body shop, along with appellant. He explained that
some of what occurred happened off camera. He testiﬁed that the video showed appellant walking in with
duct tape in his hand. He also said it showed Darren
Franklin walking in with an iron in his hand. That iron
was seized in the search of the body shop and tagged
into evidence. There was no DNA recovered. The video
also showed the complainants’ rental van being parked
inside the body shop, and the two tied-up complainants
being pushed into the back of the van.
On cross-examination, defense counsel focused on
the fact that many things happened off camera and
that there were a total of six codefendants in the case.
He also emphasized that the complainants were initially reluctant to discuss all of the facts with the police.
On redirect, Ofﬁcer Hufstedler testiﬁed that the
video corroborated what the complainants told him.
The next witness responded to a vehicle ﬁre and
found the burned out rental van with the driver’s licenses of the two complainants and fake money.
The next three witnesses were the two complainants and a brief recall of Ofﬁcer Arnold. The ofﬁcer

App. 114
testiﬁed that the video showed appellant with a gun
and that appellant was the one directing the other
codefendants to bring the van into the body shop. The
video was used extensively during the testimony of the
two complainants, both to corroborate what they were
saying but also to show what was missing from the
video.
Defense counsel emphasized that things took
place off the video screen too. But at the same time he
relied upon the video to argue that it only shows appellant’s mere presence at the scene of the crime.
The video was a central piece of evidence in the
case. It was discussed by many witnesses and was certainly used to corroborate the complainants’ testimony.
While there was independent evidence about the complainants’ rolling out of the van and the van being on
ﬁre, the video was crucial evidence to support appellant’s involvement in the crimes.
On this record, I would hold that the error contributed to the conviction. Because harm is established, I
would reverse the trial court’s judgment and remand
for a new trial. I respectfully dissent.
/s/ Tracy Christopher
Justice

App. 115
OFFICIAL NOTICE FROM COURT OF
CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
[SEAL]
1/13/2021
FOREMAN, NATHAN RAY Tr. Ct. No. 1374837
PD-1090-18
On this day, the Appellant’s motion for rehearing has
been denied.
Deana Williamson, Clerk

App. 116
OFFICIAL NOTICE FROM COURT OF
CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
[SEAL]
1/13/2021
FOREMAN, NATHAN RAY Tr. Ct. No. 1374838
PD-1091-18
On this day, the Appellant’s motion for rehearing has
been denied.
Deana Williamson, Clerk

App. 117
EXHIBIT A
THE STATE OF TEXAS
COUNTY OF HARRIS

§

AFFIDAVIT FOR

§

SEARCH WARRANT

§

I, D. Arnold, a peace ofﬁcer employed by Houston Police
Department do solemnly swear that I have reason to
believe and do believe that on the property of 2501t #2
Central Parkway Houston, Harris County, Texas (Target Location), with the authority to search for and to
seize any and all ITEMS CONSITUTING EVIDENCE
CONSTITUTING AGGRAVATED ASSAULT AND
ROBBERY that may be found therein including, but
not limited to all DNA and items that may contain
biological material; ﬁngerprints; hair ﬁber(s); audio/
video surveillance video and/or video equipment; instrumentalities of the crime including ﬁrearm(s) and
ballistics evidence; gasoline container(s), lighter(s),
tape, zip tie(s), van; fruits of the crime including wallet(s), suitcase, briefcase, money, documents establishing identity of Complainants) and/or Suspect(s) such
as paper(s), license(s), cell phone(s).
Said location of 2501-C #2 Central Parkway Houston, Harris County, Texas is more particularly
described as a single story building complex with a
large sign facing Central Parkway that shows address 2501-C for all the businesses within the complex strip, this particular business is made of metal
and brick with dark tinted glass windows and black

App. 118
painted aluminum; a sign attached to the front of the
building over the door reads “Dreams Auto Customs”;
the front door is dark tinted glass and faces parking
lot; on the door is the suite number C#2; the back of the
business has an aluminum looking, gray in color bay
door that opens into the business.
MY BELIEF IS BASED UPON THE FOLLOWING
FACTS:
D. Arnold (Afﬁant) was assigned to investigate
Aggravated Assault and reviewed offense report
#161435712D written by Ofﬁcer A. Deleon. Afﬁant was
dispatched to 10500 Northwest Freeway, Houston,
Harris County, Texas. Afﬁant learned from Ofﬁcer A.
Deleon that Cindy Davis (Witness) reported that on
December 24, 2012 she observed two men (Complainants) lying injured on the side of the roadway with
their hands tied and mouths duct taped. Affiant
learned from HPD Ofﬁcer A. Deleon that Complainants had apparent gunshot wounds to their bodies and
had been transported to Ben Taub Hospital for treatment. Afﬁant spoke to Diane Deyoung who witnessed
Complainants coming out of a white van license plate
AV5-0784 before the continued down the road without
stopping. Afﬁant learned from hospital personnel that
Moses Glekiah (Complainant Glekiah) was recovering
from gunshot wounds and Richard Merchant (Complainant Merchant) was in critical condition for his
gunshot injuries.
Afﬁant spoke with Moses Glekiah (Complainant
Glekiah) and learned he and his friend Richard

App. 119
Merchant (Complainant Merchant) had agreed to engage in business transaction at 2501-C #2 Central
Parkway Houston, Harris County, Texas with a male
known as “Jerry.” When Complainants arrived on December 24, 2012 at the business that they describe as
an autoshop, they are grabbed by several males and
held against their will. Complainant Glekiah reported
that Suspects grabbed Complainants, beat them with
hands and feet, and tied their hands with zip ties. The
Suspects also stole their cash money $400 that Complainants had in their possession, wallets, cell phone
and a suitcase/briefcase container belonging to Complainant Merchant. Suspect 1 poured gasoline on
Complainants and held lighter near Complainants
threatening to set them on ﬁre. Suspect 1 then called
two other Suspects to who put Complainants in truck
at gunpoint. Complainant Glekiah says that he felt in
fear for their lives. Complainants jumped out of the
van because they believed they were going to be killed.
As Complainant leaped out of the vehicle they were
shot by Suspects.
Complainant Glekiah directed Afﬁant to the autoshop where this Aggravated Assault and Robbery occurred at 2501-C #2 Central Parkway Houston, Harris
County, Texas. Afﬁant researched the location and
found the owner to be Charese Foreman. Afﬁant reviewed computer databases and discovered that Charese Foreman is married to Nathan Ray Foreman.
Afﬁant reviewed criminal history of Nathan Ray Foreman and found that he had been charged with autotheft, possession of prohibited weapon and delivery of

App. 120
cocaine. Afﬁant showed Complainant Glekiah a known
photograph of Nathan Ray Foreman along with ﬁve
other photos of similar looking males. Complainant
Glekiah positively identiﬁed Nathan Ray Foreman as
Suspect l who participated in punching Complainants,
told other suspects what to do, poured the gasoline on
Complainants and contacted 2 suspects to drive Complainant away from business. Afﬁant knows that gasoline and lighter are deadly weapons that can kill a
person.
Afﬁant believes that Complainants and Suspects
DNA will be inside the Target Location along with
property belonging to Complainant such as money,
suitcase/briefcase, wallets, cell phone, identiﬁcation
cards. Also instrumentalities of the crime such as
white van that transported Complainants, guns used
to shoot Complainants, zip ties used to tie complainants may also be inside Target Location.
WHEREFORE, PREMISES CONSIDERED, Your afﬁant respectfully request that a warrant issue authorizing your afﬁant, or any other peace ofﬁcer of Harris
County, Texas to enter the Target Location which is
2501-C #2 Central Parkway Houston, Harris
County, Texas with authority to search for and to
seize the property and items set out earlier in this afﬁdavit.
/s/ D. Arnold
AFFIANT

App. 121
Sworn to and Subscribed before me on this
the 7th of January
, 2013.
/s/ Blanca Villagomez
MAGISTRATE
JUDGE,
District Court
Harris County, Texas
BLANCA VILLAGOMEZ
Harris County Criminal Law
Hearing Ofﬁcer
Harris County, Texas

App. 122
THE STATE OF TEXAS

§
§

COUNTY OF HARRIS

SEARCH WARRANT

§

TO THE SHERIFF OR ANY PEACE OFFICER OF
HARRIS COUNTY TEXAS
GREETINGS:
WHEREAS, Complaint in writing, under oath, has
been made before me by D. Arnold, a peace ofﬁcer employed by Houston Police Department, which complaint is attached hereto and expressly made a part
hereof for all purposes and said complaint having
stated facts and information in my opinion sufﬁcient
to establish probable cause for the issuance of this warrant;
YOU ARE THEREFORE COMMANDED to forthwith search the place therein named, to wit 2501-C #2
Central Parkway Houston, Harris County, Texas,
with the authority to search for and to seize any and
all ITEMS CONSITUTING EVIDENCE CONSTITUTING AGGRAVATED ASSAULT AND ROBBERY
that may be found therein including, but not limited
to all DNA and items that may contain biological material; ﬁngerprints; hair ﬁber(s); audio/video surveillance video and/or video equipment.; instrumentalities
of the crime including ﬁrearm(s) and ballistics evidence; gasoline container(s), lighter(s), tape, zip tie(s),
van; fruits of the crime including wallet(s), suitcase,
briefcase, money, documents establishing identity of

App. 123
Complainant(s) and/or Suspect(s) such as paper(s), license(s), cell phone(s).
HEREIN FAIL NOT and due return make hereof.
of

WITNESS MY SIGNATURE on this the 7th day
January
A.D. 2013 at 11:27 O’clock, A.M.
/s/ Blanca Villagomez
MAGISTRATE
JUDGE,
District Court
Harris County, Texas
BLANCA VILLAGOMEZ
Harris County Criminal Law
Hearing Ofﬁcer
Harris County, Texas

App. 124
THE STATE OF TEXAS

§
§

COUNTY OF HARRIS

RETURN AND
INVENTORY

§

The undersigned, being a peace ofﬁcer under the
laws of the State of Texas, certiﬁes that the foregoing
warrant came to hand on the day it was issued and
that it was executed on the 8 day of JAN A.D. 2013
by making the search directed therein and seizing during the search the following described property:
3 – HARD DRIVES FOR COMPUTER
(– DELL OPTIPLEX 320 – JJ.J301)
(– DELL “
(– “

” – 2XW3D1)

” GX520, C4HZ091)

BLACK ZIP TIES
GRAY ZIP TIES
RED GAS CAN
1 – CANON DIGITAL CAMERA # 8924113873
1 – WHITE PLUG IN SKIMMER
– SWAB EVIDENCE – DNA
1 – Iron
1 – 5gal. Gas can

App. 125

/s/ D. Arnold
OFFICER EXECUTING PROCESS
[SEAL]
I, Chris Daniel, District Clerk of Harris
County, Texas certify that this is a true
and correct copy of the original record
ﬁled and or recorded in my ofﬁce, electronically or hard copy, as it appears on
this date.
Witness my ofﬁcial hand and seal of ofﬁce
this January 31, 2013
Certiﬁed Document Number: 54531318
/s/ Chris Daniel
Chris Daniel, DISTRICT CLERK
HARRIS COUNTY, TEXAS
In accordance with Texas Government Code 406.013
electronically transmitted authenticated documents
are valid. If there is a question regarding the validity
of this document and or seal please e-mail support@
hcdistrictclerk.com

